Department of Homeland Security
   Ofﬁce of Inspector General

 Information Technology Management Letter for 

  the Federal Emergency Management Agency 

 Component of the FY 2009 DHS Integrated Audit 





OIG-10-92                                May 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                         May 28, 2010

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the Federal
Emergency Management Agency component of the FY 2009 DHS financial statement audit as of
September 30, 2009. It contains observations and recommendations related to information
technology internal control that were summarized in the Independent Auditors Report dated
November 13, 2009 and presents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit procedures
at FEMA in support of the DHS FY 2009 financial statements and prepared this IT management
letter. KPMG is responsible for the attached IT management letter dated March 5, 2010, and the
conclusions expressed in it. We do not express opinions on DHS’ financial statements or
internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Frank Deffer
                                     Assistant Inspector General
                                     Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




March 5, 2010


Inspector General
U.S. Department of Homeland Security
Chief Information Officer
Federal Emergency Management Agency
Chief Financial Officer
Federal Emergency Management Agency


Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2009 and the related statement of custodial activity for the year then
ended (referred to herein as “financial statements”). We were also engaged to examine the
Department’s internal control over financial reporting (ICOFR) of the balance sheet as of September 30,
2009, and statement of custodial activity for the year then ended. We were not engaged to audit the
statements of net cost, changes in net position, and budgetary resources, for the year ended September
30, 2009 (referred to herein as “other fiscal year [FY] 2009 financial statements”), or to examine ICOFR
over the other FY 2009 financial statements. Because of matters discussed in our Independent Auditors’
Report, dated November 13, 2009, the scope of our work was not sufficient to enable us to express, and
we did not express, an opinion on the financial statements. In addition, we were unable to perform
procedures necessary to form an opinion on DHS’ ICOFR of the FY 2009 balance sheet and statement
of custodial activity.

In connection with our FY 2009 engagement, we examined the Federal Emergency Management
Agency’s (FEMA) internal control over financial reporting by obtaining an understanding of FEMA’s
internal control, determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls. As noted above, the scope of our work was not sufficient to
enable us to express, and we did not express, an opinion on the effectiveness of ICOFR. Further, other
matters involving ICOFR may have been identified and reported had we been able to perform all
procedures necessary to express an opinion on the DHS balance sheet as of September 30, 2009, and the
related statement of custodial activity for the year then ended, and had we been engaged to audit the
other FY 2009 financial statements.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control over financial reporting that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control over financial reporting, such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.




                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
During our audit engagement, we noted certain matters in the areas of security management, access
controls, configuration management, and contingency planning with respect to FEMA’s financial systems
information technology (IT) general controls which we believe contribute to a DHS-level significant
deficiency that is considered a material weakness in IT controls and financial system functionality. These
matters are described in the IT General Control and Financial System Functionality Findings by Audit
Area section of this letter.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 13, 2009. This letter represents the separate restricted distribution report mentioned in that
report.
Although not considered to be a material weakness, we also noted certain other items during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control and Financial System Functionality Findings by Audit Area section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and are intended. We aim to use our knowledge of DHS’ organization gained during our audit
engagement to make comments and suggestions that we hope will be useful to you. We have not
considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have provided
the following: a description of key FEMA financial systems and IT infrastructure within the scope of the
FY 2009 DHS financial statement audit engagement in Appendix A; a description of each control
deficiency in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls have been presented in a separate letter to
the Office of Inspector General and the DHS Acting Chief Financial Officer dated December 09, 2009.

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, the Office of Management and Budget, U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.

Very truly yours,
                             Department of Homeland Security
 

                         Federal Emergency Management Agency 

                         Information Technology Management Letter
                                    September 30, 2009

                                  TABLE OF CONTENTS

                                                                                    Page


Objective, Scope and Approach                                                        1


Summary of Findings and Recommendations                                              3


IT General Control and Financial System Functionality Findings by Audit Area         4


  Findings Contributing to a Material Weakness in IT at the Department Level         4


       Security Management                                                           4
 


       Access Controls                                                               4
 


       Configuration Management                                                      5


       Contingency Planning                                                          6


   Other Findings in IT General Controls                                             8
 


       Security Management                                                           8
 


       Access Controls                                                               9
 


       Configuration Management                                                      9
 


       Segregation of Duties                                                         10
 


       Contingency Planning                                                          10
 


   After-hours Physical Security Testing                                             13
 


   Causes/Effects for IT General Control Findings                                    14 


   Criteria for IT General Controls Findings                                         15 

                                                                                     16

Application Control Findings 

                                                                                     16

Management’s Comments and OIG Response

                                       APPENDICES

    Appendix                                    Subject                             Page

                    Description of Key Federal Emergency Management Agency
 

                    Financial Systems and Information Technology Infrastructure 

        A                                                                            17
                    within the Scope of the FY 2009 Department of Homeland
                    Security Integrated Audit Engagement
           Department of Homeland Security
       Federal Emergency Management Agency
       Information Technology Management Letter
                  September 30, 2009


    FY 2009 Notices of Information Technology Findings and
    Recommendations at the Federal Emergency Management
B                                                                  19
    Agency

    -Notice of Findings and Recommendations – Definition of
                                                                   20
     Severity Ratings

    Status of Prior Year Notices of Findings and Recommendations
C   (NFR) and Comparison to Current Year NFRs at the Federal       62
    Emergency Management Agency

D   Management’s Comments and OIG Response                         69


E   Report Distributions                                           70
                                 Department of Homeland Security
 

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2009


                        OBJECTIVE, SCOPE AND APPROACH

During our engagement to perform an integrated audit of Department of Homeland Security (DHS or the
Department), we evaluated the effectiveness of information technology (IT) general controls of DHS’
financial processing environment and related IT infrastructure as necessary to support the engagement.
The Federal Information System Controls Audit Manual (FISCAM), issued by the Government
Accountability Office (GAO), formed the basis of our audit procedures as they relate to our IT general
control assessment at the Federal Emergency Management Agency (FEMA). The scope of the FEMA IT
general controls assessment is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
statement audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of
review that generally should be performed when evaluating general controls and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of the IT general controls environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Access Control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.
�	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our IT general controls audit procedures, we also performed technical security testing
for key network and system devices. The technical security testing was performed from within a select
FEMA facility, and focused on test, development, and production devices that directly support FEMA’s
financial processing and key general support systems. Limited social engineering and after-hours
physical security testing was also included in the scope of technical security testing.

In addition to testing FEMA’s IT general control environment, we performed testing of automated
application controls on a limited number of FEMA’s financial systems and applications. The application
control testing was performed to assess the controls that support the financial systems’ internal controls
over the input, processing, and output of financial data and transactions.




                                                    1
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                 Department of Homeland Security
 

                             Federal Emergency Management Agency 

                             Information Technology Management Letter 

                                        September 30, 2009


�	 Application controls - Application controls are the structure, policies, and procedures that apply to
   separate, individual application systems, such as accounts payable, inventory, payroll, grants, or
   loans.




                                                     2
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                 Department of Homeland Security
 

                             Federal Emergency Management Agency 

                             Information Technology Management Letter
                                        September 30, 2009


            SUMMARY OF FINDINGS AND RECOMMENDATIONS
During FY 2009, FEMA took corrective action to address certain prior year IT control weaknesses. For
example, FEMA made improvements by finalizing and executing agreements for interconnections with
external Federal agencies, developed and implemented financial system backup procedures, made
incremental progress in improving processes for recertifying financial application user accounts, and
improved the process for retaining National Flood Insurance Program (NFIP) change control
documentation. However, during FY 2009, we continued to identify IT general control deficiencies at
FEMA. The most significant deficiencies from a financial statement audit perspective related to controls
over security management, access to programs and data, program changes, and contingency planning.
Collectively, the identified IT control weaknesses limited FEMA’s ability to ensure that critical financial
and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these deficiencies negatively impacted internal control over FEMA’s financial
reporting and its operation, and we consider them to collectively represent a material weakness for FEMA
under standards established by the American Institute of Certified Public Accountants (AICPA). In
addition, based upon the results of our test work, we noted that the FEMA did not fully comply with the
Department’s requirements under the Federal Financial Management Improvement Act of 1996 (FFMIA).
Of the 58 findings identified during our FY 2009 testing, 22 were repeat findings, either partially or in
whole from the prior year, and 36 were new IT findings. These findings represent deficiencies in each of
the five FISCAM control areas. We also considered the effects of financial systems functionality when
testing internal controls since key FEMA financial systems are not compliant with FFMIA and are no
longer supported by the original software provider. Financial system functionality limitations add to the
challenge of addressing systemic control deficiencies and strengthening the control environment at
FEMA.
The majority of findings resulted from the lack of properly designed, detailed, and consistent guidance
over financial system controls to enforce DHS Sensitive Systems Policy Directive 4300A, Information
Technology Security Program, requirements and National Institute of Standards and Technology (NIST)
guidance. Specifically, the findings stem from: 1) the lack of formal designation of financial system
security responsibilities, 2) inadequately designed and operating access control policies and procedures
relating to the management of access to financial applications and databases and supervisor re­
certifications of user access privileges, 3) insufficient logging of system events and monitoring of audit
logs, 4) inadequately designed and operating configuration management policies and procedures, 5) patch
and configuration management control deficiencies within the system, 6) financial systems that were not
properly certified and accredited and authorized to operate, and 7) the lack of tested contingency plans.
These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and FEMA financial data could be exploited thereby compromising the integrity of financial data
used by management and reported in the DHS consolidated financial statements.
While the recommendations made by us should be considered by FEMA, it is the ultimate responsibility
of FEMA to determine the most appropriate method(s) for addressing the deficiencies identified based on
its system capabilities and available resources.




                                                    3
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter 

                                       September 30, 2009


IT GENERAL CONTROL AND FINANCIAL SYSTEM FUNCTIONALITY
                FINDINGS BY AUDIT AREA
Findings Contributing to a Material Weakness in IT at the Department Level
Conditions: In FY 2009, the following IT general control deficiencies were identified at FEMA and
contributed to a DHS-level significant deficiency that is considered a material weakness in IT general
controls.
1.	 Security Management – we noted:
    �	 The Grants and Training (G&T) Integrated Financial Management Information System (IFMIS)
       and the Payment and Reporting System (PARS) were not certified and accredited prior to
       implementation into the production environment in FY 2007 and had been operating without an
       Authorization to Operate (ATO);
    �	 Information System Security Officers (ISSO) and Designated Authorizing Authority (DAA) were
       not formally designated for G&T IFMIS and PARS;
    �	 Vulnerabilities identified during periodic internal scans of the National Emergency Information
       System (NEMIS) and related corrective actions were not reported and tracked in accordance with
       DHS policy;
    �	 G&T IFMIS and PARS were not included in FEMA’s systems inventory, and neither system was
       being tracked via the Trusted Agent Federal Information Security Management Act repository;
       and
    �	 The FEMA Switch Network (FSN)-2 certification and accreditation (C&A) package did not
       include the Maryland (MD) National Processing Service Center (NPSC) local area network
       (LAN) subsystem on which the primary servers for FEMA financial applications reside, and
       security roles for the MD NPSC were not formally designated.
2.	 Access Controls – we noted:
    �	 Password, security patch management, and configuration deficiencies were identified during the
       vulnerability assessment on hosts supporting the key financial applications and general support
       systems;
    �	 Core IFMIS, G&T IFMIS, NEMIS, and PARS application and/or database accounts, network, and
       remote user accounts were not periodically reviewed for appropriateness, resulting in
       inappropriate authorizations and excessive user access privileges. For G&T IFMIS, we
       determined that recertification of user accounts had not been conducted since the application was
       implemented at FEMA in FY 2007;
    �	 Financial application, network, and remote user accounts were not disabled or removed promptly
       upon personnel termination;
    �	 Initial and modified access granted to Core and G&T IFMIS financial application and/or 

       database, network, and remote users was not properly documented and authorized;
 




                                                    4
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter 

                                       September 30, 2009


   �	 Documented procedures for auditing NEMIS, Core IFMIS, G&T IFMIS, and PARS databases do
      not meet DHS requirements. Additionally, for these financial systems, logging of application
      and/or database events required to be recorded was not enabled, audit logs were not reviewed
      and/or were reviewed by those with conflicting roles, and evidence of audit log reviews was not
      retained;
   �	 Strong password requirements were not enforced on the NEMIS and PARS databases and the
      FEMA LAN;
   �	 FEMA’s process for authorizing and managing remote virtual private network (VPN) access to
      external state emergency management agencies and FEMA contractors did not comply with DHS
      and FEMA requirements. Specifically, existing documentation does not define the requirements
      for administering the site survey process with external organizations seeking VPN access or
      identify FEMA roles and responsibilities for managing VPN access granted to external
      individuals using non-DHS equipment to access the FEMA network;
   �	 A DHS Waivers and Exceptions Request Form related to Core IFMIS financial database audit
      logging deficiencies was approved based on inconsistently or inaccurately described mitigating
      and compensating security controls over the financial application and database, and controls
      required as a condition of DHS approval were not implemented;
   �	 System administrator root access to one instance of IFMIS was not properly restricted, logged,
      and monitored; and
   �	 Emergency and temporary access to the Core IFMIS, G&T IFMIS, and PARS databases were not
      properly authorized, and contractor development personnel were granted conflicting access to
      implement database changes.
3.	 Configuration Management – we noted:
   �	 The Standard Operating Procedure (SOP) for monitoring sensitive access to NEMIS operating
      system software was not implemented and did not include all NEMIS operating system servers
      that are within scope. Additionally, there was no application or tool in place to support the audit
      logging function on the NEMIS servers;
   �	 Implemented emergency and non-emergency changes to NEMIS system software were not
      consistently documented, tested, approved, controlled, tracked, and retained on file;
   �	 G&T IFMIS contracted developers/programmers were granted unrestricted access to the
      production environment through the “ifmiscm” account, which is used to deploy changes into
      production;
   �	 A finalized patch management policy that includes the timeframe for installing patches was not
      implemented for financial systems; and
   �	 Access was inappropriately granted to NEMIS developers to allow unrestricted access to both the
      production and development environments, and code in the NEMIS server directory environment
      is not locked down to prevent access to the Test and Development Laboratory and production
      environments after the code is approved for implementation.



                                                    5
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                  Department of Homeland Security
 

                              Federal Emergency Management Agency 

                              Information Technology Management Letter 

                                         September 30, 2009


4. Contingency Planning – we noted:
   �	 An alternate processing site for NEMIS was not established and implemented. Additionally, the
      approved DHS waiver was expired, and documented controls for restoring NEMIS servers from
      backup tapes to compensate for the lack of an alternate processing site were ineffective.
Recommendations: We recommend that the FEMA Chief Information Officer (CIO), FEMA Chief
Financial Officer (CFO), and other relevant FEMA management, in coordination with the DHS CIO and
Acting CFO, make the following improvements to FEMA’s financial management systems and associated
IT security program:
1.	 For Security Management:
   �	 Certify and accredit G&T IFMIS and PARS in accordance with applicable DHS policies and
      Federal guidance;
   �	 Formally designate ISSOs and DAAs for G&T IFMIS and PARS;
   �	     Develop and implement procedures that outline the process for formally reporting and tracking
          resolution of weaknesses identified during NEMIS internal vulnerability scans in accordance with
          DHS guidance;
   �	     Update the FEMA systems inventory to include G&T IFMIS and PARS and consistently adhere
          to policies and procedures for updating and monitoring the systems inventory to ensure that all
          new and current systems are accounted for with complete and accurate information, in accordance
          with NIST and DHS policy; and
   �	 Conduct a risk assessment of the MD NPSC LAN that supports FEMA financial systems, and
      review and revise the FSN-2 C&A package to reflect the current environment and include the
      MD NPSC LAN. Additionally, formally designate an ISSO and DAA for the MD NPSC.
2.	 For Access Controls:
   �	 Implement the specific vendor-recommended corrective actions detailed in the Notice of Finding
      and Recommendation (NFR) that was issued for deficiencies identified during our vulnerability
      assessment;
   �	 Fully establish and/or implement user account management recertification processes and require
      completion of periodic reviews of all user accounts for appropriate access and documentation of
      current user profiles. The processes should include revocation of accounts that cannot be verified
      during recertification processes;
   �	 Update, as necessary, and consistently implement procedures and processes to ensure that all
      system accounts, including remote access accounts, of terminated employees and contractors are
      immediately removed/disabled upon their departure;
   �	 Review and revise existing procedures to require authorization of new and modified user accounts
      by supervisors, program managers, and contracting officers’ technical representatives in
      accordance with DHS requirements;




                                                     6
        Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                       Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter 

                                       September 30, 2009


   �	 Revise and implement detailed procedures requiring the consistent and timely review of Core
      IFMIS and G&T IFMIS database and financial application logs and the maintenance of
      documentation supporting such reviews in accordance with DHS requirements;
   �	 Configure audit logs for financial databases and applications to ensure that auditable events, as
      required by DHS policy, are recorded and appropriately reviewed by personnel without
      conflicting duties;
   �	 Configure NEMIS and PARS databases and FEMA LAN accounts to enforce strong password
      and authenticator control requirements, and ensure that individuals with system/database
      administration and security responsibilities are aware of and properly trained in DHS, FEMA, and
      Federal requirements;
   �	 Revise and implement policies and procedures for documenting, reviewing, and approving the
      security controls in place over non-DHS equipment connecting to the FEMA network via VPN
      access, and ensure that roles, responsibilities, and security requirements for authorizing and
      managing VPN access for external organizations connecting to the FEMA network are defined
      and implemented in accordance with DHS and FEMA policy;
   �	 Submit a revised DHS Waivers and Exceptions Request Form that accurately reflects the
      mitigating and compensating controls in place on the Core IFMIS financial application and
      database that justify exception from DHS audit logging policy. Additionally, ensure that (1)
      future requests include input from system owners and administrators to help ensure risk
      mitigation strategies accurately reflect implemented security controls and (2) a more formal
      process is established for providing and communicating approved waivers and conditions of
      approval to system owners;
   �	 Develop and implement procedures for monitoring IFMIS system administrator and highly-
      privileged account activities and restricting access to the root account, and ensure that reviews of
      system logs and records are properly conducted; and
   �	 Establish a formal process for granting Core IFMIS, G&T IFMIS, and PARS emergency and
      temporary database access that includes segregation of duties considerations and appropriate
      approval from FEMA management.
3.	 For Configuration Management:
   �	 Revise, implement, and ensure adherence to the SOP for monitoring sensitive access to NEMIS
      operating system software to ensure that the scope of the procedures includes all defined NEMIS
      servers, and deploy the appropriate tool(s) to support audit logging functions on the NEMIS
      servers, in accordance with FEMA and DHS policy;
   �	 Develop configuration management policies and procedures for NEMIS emergency and non-
      emergency changes to financial system applications software, and ensure consistent adherence
      with requirements for approving, testing, documenting, properly controlling and tracking changes,
      and retaining related documentation;
   �	 Limit the contracted developers/programmers’ access to the G&T IFMIS production environment
      to “read only,” and segregate the responsibility for deploying application code changes into


                                                    7
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter 

                                       September 30, 2009


       production from the contractor to an independent control group. If business need does not allow
       for segregation of these duties, FEMA should document policies and procedures to mitigate the
       risk associated with the segregation of duties weakness noted in accordance with DHS guidance;
   �	 Dedicate the appropriate resources to complete efforts to document, finalize, and implement
      comprehensive patch management policies and procedures, including requirements for timely
      implementation of required patches; and
   �	 Develop and implement formal processes and procedures for restricting and monitoring access to
      the NEMIS production directories to ensure that the principles of least privilege and segregation
      of duties are enforced. The process should include requirements over the monitoring of NEMIS
      system directories to ensure that no changes have occurred after the approval of NEMIS system
      changes has occurred. Additionally, FEMA should limit developers’ access to the NEMIS
      production directories to “read only” and segregate the responsibility for delivering application
      code changes into the NEMIS directory server from the contractor to an independent control
      group.
4.	 For Contingency Planning:
   �	 Complete on-going efforts to establish and implement an alternate processing site for NEMIS.
      Until an alternate processing site is established, obtain a current waiver approved by DHS and
      ensure that identified compensating controls are operating effectively to address the lack of an
      alternate processing site.
Other Findings in IT General Controls
Conditions: Although not considered to be a material weakness, we also noted the following other
matters related to IT control deficiencies during the FY 2009 IT audit procedures at FEMA:
1.	 Security Management – we noted:
   �	 The revised system security plan (SSP) for NEMIS did not fully document the systems
      boundaries, define all subsystems and major applications, or establish security responsibilities for
      all system components;
   �	 The C&A for the legacy National Flood Insurance Program (NFIP) IT system pertaining to the
      Traverse application, Transaction Recording and Reporting Processing (TRRP) application, and
      NFIP LAN was expired, and the system was operating without a current ATO;
   �	 For the majority of FY 2009, a finalized and executed Memorandum of Understanding and an
      Interconnection Sharing Agreement was not in place between FEMA and the Department of the
      Treasury. (Note: This issue was fully remediated during the audit and no further
      recommendation was required.);
   �	 Procedures for managing IT security incidents were not developed, approved, and implemented,
      and our unannounced vulnerability assessment scanning activity was not detected and
      appropriately reported by FEMA IT, in accordance with DHS and FEMA incident response
      policy;




                                                    8
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter 

                                       September 30, 2009


   �	 FEMA Office of the Chief Financial Officer (OCFO) and NFIP financial systems development
      and acquisition projects were undertaken and progressed without: (1) proper oversight of and
      direction to contractors, (2) development and approval of required project documentation, (3) the
      continual involvement of the Office of the Chief Information Officer (OCIO) to ensure
      appropriate consideration and integration of IT security, and (4) the joint communication and
      decision-making of FEMA OCFO, OCIO, and NFIP management;
   �	 Suitability investigations for FEMA federal employees and contractors were not appropriately
      conducted, and position designations associated with employees and contractors with elevated
      system privileges did not have appropriate position sensitivity designations. Additionally, formal
      procedures were not developed or implemented for conducting suitability screenings for
      contractors accessing DHS IT systems; and
   �	 FEMA did not have a process for tracking the status of contractors or an effective and formal
      process for notifying the OCIO of changes in contractor status so that user accounts could be
      appropriately disabled, removed, or modified in a timely manner.
2.	 Access Controls – we noted:
   �	 A formalized process did not exist to guide Core IFMIS staff in the modification of system
      accounts to ensure that appropriate privileges were created, documented, and approved for a
      specific security function, and the use of function modification privileges was not monitored;
   �	 The Core IFMIS database and TRRP system were configured with weak passwords that did not
      comply with DHS policy. (Note: TRRP password settings were reconfigured during the audit to
      exceed DHS requirements. The weakness was fully remedied and no further recommendation was
      required.);
   �	 FEMA end-user workstations were not properly configured to activate a password-protected
      screensaver after 5 minutes of inactivity, as required by DHS policy;
   �	 Policies and procedures that require periodic documented recertification of NFIP data center
      access at a defined frequency were not developed and implemented; and
   �	 Processes to formally document authorizations, approvals, business needs, and recertification of
      TRRP system service accounts were not established. As a result, evidence that service accounts
      were authorized was not on file, and service accounts were not included in TRRP recertification
      efforts.
   We also identified exceptions related to access controls during our after-hours physical security
   testing. Details of the exceptions identified are outlined in the After-Hours Physical Security Testing
   section of this report.
3.	 Configuration Management – we noted:
   �	 Formal procedures were not implemented to require monitoring of developers’ changes to Core
      IFMIS directories and sub-directories to financial applications to review and validate
      implemented changes, and informal reviews of developer activities were not routinely performed
      and documented;



                                                    9
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                 Department of Homeland Security
 

                             Federal Emergency Management Agency 

                             Information Technology Management Letter 

                                        September 30, 2009


   �	 The configuration management plans for the NFIP Traverse and TRRP systems did not
      comprehensively provide guidance to address all configuration management control elements
      required by FEMA and DHS policy;
   �	 TRRP changes were not approved prior to development and implementation into production;
   �	 Procedures for approving, testing, and ensuring timely installation of operating system patches for
      the NFIP LAN, Traverse, Core IFMIS, and G&T IFMIS were not developed and implemented;
   �	 Formal procedures for conducting internal scans of the Core IFMIS, G&T IFMIS, and NFIP LAN
      and Traverse operating system were not developed, remediation of vulnerabilities identified
      during internal scans were not tracked and monitored, and certain workstations were excluded
      from the scope of NFIP LAN scans conducted; and
   �	 The third-party development vendor was allowed use of NFIP system administrator accounts to
      logon and create sessions for installing Traverse system changes, and a formal process was not
      established for monitoring changes made by the vendor.
4.	 Segregation of Duties – we noted:
   �	 Incompatible duties that must remain segregated when granting and maintaining Traverse user
      access and processes for segregating incompatible duties within Traverse were not formally
      documented in existing policies and procedures.
5.	 Contingency Planning – we noted:
   �	 NEMIS backup tapes were not regularly tested in accordance with policy;
   �	 Full scale testing of the NEMIS contingency plan was not conducted, and the plan did not
      adequately and comprehensively include information for fully restoring NEMIS in accordance
      with requirements for high impact availability systems or accurately include NEMIS system
      architecture information. Additionally, the waiver approved by DHS that identified table-top
      testing as a compensating control for FEMA’s inability to fully test NEMIS was expired; and
   �	 The existing TRRP and Traverse contingency plans and NFIP Bureau and Statistical Agent
      Disaster Recovery and Continuity of Operations Plan were not current or tested for systems
      recovery and failover capability at the alternate processing site. Additionally, the Traverse and
      TRRP alternate processing facility and TRRP critical data files were not documented in the
      existing disaster recovery and continuity of operations plan.
Recommendations: We recommend that the FEMA CIO, FEMA CFO, and other appropriate FEMA
management, in coordination with the DHS CIO and Acting CFO, make the following improvements to
FEMA’s financial management systems:
1.	 For Security Management:
   �	     Ensure that the NEMIS SSP is updated in accordance with DHS policy so that the system’s
          boundaries, components, and roles and responsibilities are properly defined and documented;
   �	 Complete the recertification and accreditation of the NFIP legacy system and re-authorize the
      system for operation, in accordance with DHS policies and Federal guidance;


                                                   10
        Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                       Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter 

                                       September 30, 2009


   �	 Develop and implement approved procedures for managing security incidents that clearly outline
      roles and responsibilities required to maintain a continuous incident response capability, and
      provide training to all personnel with assigned roles and responsibilities;
   �	 Define and implement formal and repeatable processes to ensure that financial systems
      development and acquisition projects are conducted in compliance with DHS System Engineering
      Life Cycle and acquisition requirements and Federal guidance;
   �	 Further refine processes to ensure that background investigations for all types of federal
      employees and contractors are performed, and reevaluate and assign the correct position
      sensitivity levels for federal employees and contractors with access to DHS information systems.
      FEMA Acquisitions, FEMA Personnel Security, and FEMA IT should also work together to
      implement procedures to ensure a more centralized and coordinated process for tracking and
      completing background investigations over contracting personnel, in accordance with DHS
      policy; and
   �	 Document and implement procedures for tracking contract on-boards, transfers, and separations
      that include assignment of roles and responsibilities to appropriate FEMA management and
      stakeholders and steps for notifying the OCIO and system owners of changes in contractor status
      that require changes to user access.
2.	 For Access Controls:
   �	 Develop and implement policies and procedures that document the process of adding, deleting,
      and modifying Core IFMIS security functions to ensure that the proper controls are in place for
      modifying user account privileges. Additionally, ensure that the use of function modification
      privileges is monitored;
   �	 Reconfigure Core IFMIS database passwords to enforce full compliance with DHS policy;
   �	 Configure the FEMA LAN domain security policy to automatically activate password-protected
      screensavers on end-user workstations after the period of inactivity defined in DHS policy;
   �	 Develop and implement policies and procedures for periodic recertification of physical access to
      the NFIP data center, to include the required frequency of reviews and the documentation that
      should be maintained as evidence of reviews conducted; and
   �	 Revise the TRRP access control policies and procedures to ensure that the creation of service
      accounts are appropriately authorized and that a clear business need is established and
      documented. Additionally, ensure that policies and procedures over TRRP access authorization
      include the recertification of service accounts in accordance with DHS policy.
3.	 For Configuration Management:
   �	 Develop and implement formal procedures for conducting periodic reviews of Core IFMIS
      developer changes to financial application directories and sub-directories to verify that only
      authorized changes are implemented into production and for retaining evidence of reviews
      conducted on file;




                                                   11
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2009


�	 Update the current versions of NFIP Traverse and TRRP configuration management procedures to
   comprehensively address DHS and FEMA requirements, including requirements to initially
   approve changes prior to development and implementation in the production environment;
�	 Ensure the implementation of an updated version of the current TRRP configuration management
   procedures that comprehensively addresses requirements. The procedures should require initial
   approvals of change requests and establish a process for obtaining Change Control Board and
   Technical Review Committee approvals prior to implementing changes into production;
�	 Document, finalize, and implement comprehensive patch management policies and procedures
   that outline requirements for authorizing, testing, and installing required NFIP LAN, Traverse,
   Core IFMIS, and G&T IFMIS operating system patches. The policies and procedures should
   establish timeframes for installing required patches;
�	 Develop, finalize, and implement formal procedures over Core and G&T IFMIS and the NFIP
   LAN and Traverse operating system for: (1) conducting periodic internal vulnerability scans of
   FEMA and NFIP financial systems; (2) assessing, reporting, and tracking and monitoring
   correcting vulnerabilities identified during internal scans; and (3) ensuring all workstations are
   included in the scope of scans; and
�	 Establish a separate account for use by the NFIP third-party development vendor when
   implementing Traverse changes that is limited to activation on an as-needed basis, and establish a
   process for monitoring and verifying that configuration changes by the vendor are implemented
   and documented in accordance with policy.




                                                12
 Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                Integrated Audit
 

                                     Department of Homeland Security
 

                                 Federal Emergency Management Agency 

                                 Information Technology Management Letter 

                                            September 30, 2009


4. For Segregation of Duties:
    �	 Document incompatible duties that must remain segregated when granting and maintaining
       Traverse user access, and update existing policies and procedures to include requirements for
       properly segregating incompatible duties within Traverse.
5.	 For Contingency Planning:
    �	 Periodically test NEMIS backup tapes at a frequency that is in accordance with policy;
    �	 Update the NEMIS contingency plan in accordance with DHS requirements for high impact
       availability systems, inclusive of accurate system architecture information; conduct documented
       annual tests of the plan; and as necessary, update the plan with lessons learned from testing. If the
       NEMIS contingency plan cannot be tested, obtain DHS approved waiver, and implement effective
       compensating and mitigating controls; and
    �	 Update and appropriately test the TRRP and Traverse contingency plans and NFIP Bureau and
       Statistical Agent Disaster Recovery and Continuity of Operations Plan, in accordance with DHS
       requirements for high impact systems, and test fail-over capability at the alternate processing site.
       Additionally, incorporate the Traverse and TRRP alternate processing facility and critical data
       files into the revised NFIP Bureau and Statistical Agent Disaster Recovery and Continuity of
       Operations Plan.
After-Hours Physical Security Testing

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects included physical access to media and equipment that
housed financial data and information residing on a FEMA employee’s / contractor’s desk, which could
be used by others to gain unauthorized access to systems housing financial information. The testing was
performed at various FEMA locations that process and / or maintain financial data.
Conditions: Although not considered to be a material weakness, we noted the following other matters
that resulted from our after-hours physical security testing during the FY 2009 audit engagement:

                                                               Locations
                                               FEMA                           FEMA Design    Total Exceptions
             Exceptions Noted               Headquarters    Patriot’s Plaza     Center           by Type
Unprotected Passwords                            18               19              5                 42
External Memory Drives                            0                2              2                 4
For Official Use Only (FOUO)                      0                1              1                 2
Keys/Badges                                       0                0              2                 2
Personally Identifiable Information (PII)         0                1              1                 2
Server Names/IP Addresses                         0                0              1                 1
Unsecured Workstations or Laptops                 0                1              0                 1
Credit Cards                                      0                0              0                 0
Classified Documents                              0                0              0                 0
Other –US government official passport            0                0              0                 0
Total Exceptions by Location                     18               24              12                54




                                                       13
      Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                     Integrated Audit
 

                                  Department of Homeland Security
 

                              Federal Emergency Management Agency 

                              Information Technology Management Letter 

                                         September 30, 2009


Recommendations: We recommend that the appropriate FEMA management review the effectiveness of
existing security awareness programs designed to protect electronic and physical data and ensure that
individuals are adequately instructed and reminded of their roles in the protection of both electronic and
physical FEMA data and hardware. Additionally, FEMA employees and contractors should be made
aware of the need to protect PII, as well as information marked “FOUO.”
Causes/Effects for IT General Control Findings:
Many of these deficiencies originate from policy and system development activities that did not
incorporate strong security controls from the outset and will take several years to fully remediate. While
FEMA has made improvements in addressing the root cause of some IT deficiencies and has worked to
improve security controls, we found that focus is often still placed on the tracking of responses to audit
recommendations, instead of on developing the most effective method of addressing the actual control
deficiency. When deficiencies in controls or processes are identified, we noted that corrective actions
implemented address the symptom of the problem and do not always correct the root cause, resulting in a
temporary fix. Further, detection of these temporary fixes through self-evaluation is not effective, due to
insufficient testing of IT controls and remediation activities. Finally, FEMA has undertaken several high
priority and competing IT initiatives to improve its control environment and does not always have
sufficient resources to direct towards the implementation of security controls in a consistent manner.
Reasonable assurance should be provided that financial system user access levels are limited and
monitored for appropriateness and that all user accounts belong to current employees and contractors.
Furthermore, monitoring of the more highly privileged accounts is essential. The deficiencies identified
in FEMA’s access controls increase the risk that employees and contractors may have access to a system
that is outside the realm of their job responsibilities or that a separated individual, or another person with
knowledge of an active account of a terminated employee or contractor, could use the account to alter the
data contained within the application or database without being detected. This may also increase the risk
that the confidentiality, integrity, and availability of system controls and the financial data could be
exploited, thereby compromising the integrity of financial data used by management and reported in the
DHS financial statements.
The lack of fully implemented security configuration management controls may result in security
responsibilities being improperly communicated to system developers as well as the improper
implementation and monitoring of system changes. This also increases the risk of unsubstantiated
changes and changes that may introduce errors or data integrity issues that are not easily traceable back to
the changes. In addition, it increases the risk of undocumented and unauthorized changes to critical or
sensitive information and systems, which may reduce the reliability of information produced by these
systems.
The deficiencies in security management controls identified may result in systems being developed and
implemented without proper identification and management of IT security risks. As a result, FEMA
management decisions may be based on incomplete or inaccurate information, and IT controls may not be
designed and implemented to adequately protect financial systems data and information. Additionally,
the lack of implemented incident response procedures may result in suspected incidents not being
appropriately detected, reported, and managed within the timeliness needed to prevent or minimize the
impact to information resources. Finally, individuals who are unable to obtain favorable background
investigations or who no longer have a need for access and privileges based on their employment status


                                                      14
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                 Department of Homeland Security
 

                             Federal Emergency Management Agency 

                             Information Technology Management Letter 

                                        September 30, 2009


and current job responsibilities, may be inappropriately granted and/or maintain access to financial
systems and data.
A lack of segregation of duties policies and procedures may result in conflicting systems roles and
privileges being granted to individuals. Additionally, if inappropriate data manipulation occurs, FEMA
management may not be able to quickly determine if a segregation of duties conflict within roles and
responsibilities resulted in the infraction and would have little recourse for taking action against users
effectuating the violation.
The deficiencies related to contingency planning controls that we identified may result in FEMA’s
inability to recover financial systems and data during interruptions to financial processing so that
operations can resume. Consequently, financial data may be lost or incorrectly processed. Moreover,
deficiencies in contingency planning controls may negatively impact FEMA’s national emergency
management mission. Specifically, if FEMA were unable to recover and resume operations for NEMIS
during states of emergencies or disasters, national response capabilities could be hindered.
Criteria for IT General Control Findings
The criteria used during our FY 2009 audit procedures over IT general controls consisted of Federal
government and DHS IT security requirements. The Federal Information Security Management Act
(FISMA), passed as part of the Electronic Government Act of 2002, mandates that Federal entities maintain IT
security programs in accordance with Office of Management and Budget (OMB) and NIST guidance. OMB
Circular No. A-130, Management of Federal Information Resources, and various NIST guidelines, including
NIST Special Publication 800-53 (revision 2), Recommended Security Controls for Federal Information
Systems, describe specific essential criteria for maintaining effective IT general controls. In addition, OMB
Circular No. A-127, Financial Management Systems, prescribes policies and standards for Executive Branch
departments and agencies to follow in developing, operating, evaluating, and reporting on financial
management systems. For this year’s IT audit procedures, we also assessed FEMA’s compliance with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program.




                                                    15
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                Department of Homeland Security
 

                            Federal Emergency Management Agency 

                            Information Technology Management Letter
                                       September 30, 2009



                         APPLICATION CONTROL FINDINGS
We concluded that application controls over NEMIS, Core IFMIS, G&T IFMIS, and PARS could not be
relied upon for purposes of our FY 2009 audit procedures because of the nature of general IT control
deficiencies identified and discussed above. As a result, we did not test application controls for these
financial systems. However, we conducted certain application control testing over key financial systems
supporting NFIP. Based on the testwork conducted, no application control weaknesses were identified
during our FY 2009 testing at FEMA.


             MANAGEMENT’S COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the FEMA management. The FEMA
management agreed with all of our findings and recommendations. The FEMA management has
developed a remediation plan to address these findings and recommendations. We have included a copy
of the comments in Appendix D.

OIG Response

We agree with the steps that FEMA management is taking to satisfy these recommendations.




                                                   16
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                                                          Appendix A

                         Department of Homeland Security
 

                     Federal Emergency Management Agency 

                     Information Technology Management Letter 

                                September 30, 2009




                                  Appendix A 


  Description of Key Federal Emergency Management Agency Financial
 

Systems and Information Technology Infrastructure within the Scope of the 

 FY 2009 Department of Homeland Security Integrated Audit Engagement 





                                        17
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                 Integrated Audit
 

                                                                                         Appendix A

                             Department of Homeland Security
 

                         Federal Emergency Management Agency 

                         Information Technology Management Letter 

                                    September 30, 2009


Below is a description of significant Federal Emergency Management Agency (FEMA) financial
management systems and supporting information technology (IT) infrastructure included in the scope
of the FY 2009 engagement to perform the financial statement audit.

Locations of Audit: FEMA Headquarters in Washington, D.C.; the Mount Weather Emergency
Operations Center in Bluemont, Virginia; IT operations in Winchester, VA; the National Flood
Insurance Program (NFIP) in Crystal City, Virginia; and the NFIP contractor location in Lanham,
Maryland.

Key Systems Subject to Audit:

�	 Core Integrated Financial Management Information System (IFMIS): Core IFMIS is the primary
   financial reporting system and has several feeder subsystems (budget, procurement, accounting,
   and other administrative processes and reporting).

�	 Grants and Training (G&T) IFMIS: G&T IFMIS was moved from the Department of Justice into
   the FEMA environment in FY 2007. The system stores former G&T financial information.

�	 Payment and Reporting System (PARS): PARS is a standalone web-based application that resides
   on the G&T IFMIS UNIX server. Through its web interface, PARS collects and stores Standard
   Form 269 information from grantees. Cron jobs are run daily to update the grant information
   from PARS into G&T IFMIS. Additionally, through these cron jobs, PARS is also updated with
   the obligation information from G&T IFMIS to provide updated information to its users.

�	 National Emergency Management Information System (NEMIS): NEMIS is an integrated system
   to provide FEMA, states, and certain other federal agencies with automation to perform disaster
   related operations. NEMIS supports all phases of emergency management and provides financial
   related data to Core IFMIS via an automated interface.

�	 Traverse: Travers is the general ledger application currently used by the NFIP Bureau and
   Statistical Agent to generate the NFIP financial statements. Traverse is a client-server application
   that runs on the NFIP Local Area Network Windows server in Lanham, MD. The Traverse client
   is installed on the desktop computers of the NFIP Bureau of Financial Statistical Control group
   members.

�	 Transaction Recording and Reporting Processing (TRRP): The TRRP application acts as a
   central repository of all data submitted by the Write Your Own (WYO) companies for the NFIP.
   TRRP also supports the WYO program, primarily by ensuring the quality of financial data
   submitted by the WYO companies to TRRP. TRRP is a mainframe-based application that runs on
   the NFIP mainframe logical partition in Norwich, Connecticut.




                                                18
 Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                Integrated Audit
 

                                                                           Appendix B

                          Department of Homeland Security
 

                      Federal Emergency Management Agency 

                      Information Technology Management Letter 

                                 September 30, 2009




                                   Appendix B

FY 2009 Notices of Information Technology Findings and Recommendations
             at the Federal Emergency Management Agency




                                         19
   Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                  Integrated Audit
 

                                                                                             Appendix B

                                   Department of Homeland Security
 

                               Federal Emergency Management Agency 

                               Information Technology Management Letter 

                                          September 30, 2009


Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the
Department of Homeland Security (DHS) Independent Auditors’ Report.

      1 – Not substantial

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity
for consolidated reporting purposes.

These rating are provided only to assist the Federal Emergency Management Agency (FEMA) in the
development of its corrective action plans for remediation of the deficiency.




                                                    20
     Information Technology Management Letter for FEMA Component of the FY 2009 DHS 

                                    Integrated Audit
 

                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009


                                                                                                                                        Repeat    Risk
NFR #                            Condition                                           Recommendation                         New Issue
                                                                                                                                         Issue   Rating
 FEMA­     Password, patch management, and configuration             Implement the specific corrective actions listedXin                           3
IT-09-02   management weaknesses were identified during              the NFR for each technical control weakness
           vulnerability assessment technical testing.               identified.
           Note: Due to the nature of this finding, see the tables
           in associated NFR for the specific details of the
           conditions.
 FEMA­     The process outlined for the Core Integrated Financial    �    Revise applicable FEMA policies and         X                              3
IT-09-03   Management        Information     System      (IFMIS)          procedures to require that any accounts which
           recertification that initiated on January 12, 2009,            are not positively verified during the periodic
           required that a new FEMA Form 20-24 be approved                review of IFMIS accounts for recertification
           and submitted to the Financial Systems Section (FSS)           are revoked until a new approved FEMA Form
           for all current IFMIS users, and also required                 20-24 is received by FSS personnel.
           revocation of any accounts that could not be validated.
           However, we noted that the requirement to revoke          �    Dedicate resources to ensure that consistent
           access is not documented in the Office of the Chief            application of FEMA policies/procedures and
           Financial Officer (OCFO) Procedures for Granting               DHS policy is performed by revoking access
           Access to IFMIS or FEMA Instruction 2200.7, IFMIS              for all IFMIS application accounts not
           User Access Policy and Procedures.                             validated through submission of a new FEMA
                                                                          Form 20-24 as part of the periodic account
           We reviewed access authorization documentation for a           review.
           selection of 40 active Core IFMIS user accounts, noted
           that 2 accounts did not have a FEMA Form 20-24
           completed after January 12, 2009, and concluded that
           the accounts were not appropriately recertified and
           validated as belonging to current users. Additionally,
           access for the 2 accounts was not revoked, per the
           process described in the memorandum.




                                                                         21
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                            Recommendation                        New Issue
                                                                                                                                         Issue   Rating
 FEMA­     During the FY 2009 follow-up testwork, we noted that       Develop and implement policies and procedures   X                            2
IT-09-06   FEMA has obtained and distributed a reference guide        documenting the process of adding, deleting, and
           that documents the purpose of Core IFMIS system            modifying Core IFMIS system security functions
           security functions and their associated permissions and    to ensure that the proper controls are in place for
           configuration options. However, the guide does not         modifying user account privileges. Additionally,
           include policies and procedures addressing process         these policies and procedures should include
           requirements for adding, deleting, and modifying Core      requirements over the monitoring of the usage of
           IFMIS system security functions. We also determined        function modification privileges, configuration
           that no additional policies and procedures have been       changes implemented for Core IFMIS system
           developed by FEMA or the IT developer of IFMIS             security functions, and requirements over updating
           that establish a process for implementing change           system documentation for changes in the system
           controls for the maintenance of system security            security functions.
           functions and their associated privileges.
           FEMA management represented to us that access to
           the security menu is limited, individuals with access to
           the menu do not use their privileges to delete, create,
           or modify functions, and changes are made to Core
           IFMIS system security functions through the standard
           change control process. However, we noted there are
           no controls in place to restrict and/or monitor the use
           of these privileges to ensure that system security
           functions are not modified, created, or deleted.
           Based on our testwork, we concluded that a formalized
           process for modifying specific Core IFMIS system
           security functions to ensure that appropriate privileges
           are created, documented, approved, and monitored
           does not exist.




                                                                        22
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                           Condition                                           Recommendation                         New Issue
                                                                                                                                        Issue   Rating
 FEMA­     The standard operating procedure (SOP) for               �                                            X
                                                                         Dedicate resources to complete the on-going                              3
IT-09-12   recertification of National Emergency Management              review of NEMIS user access for FY 2009 and
           Information System (NEMIS) positions has not been             perform subsequent reviews, as required by
           finalized and implemented to require a semi-annual            DHS policy.
           review of all user roles within the NEMIS Access
           Control System (NACS), including privileges related      �    Finalize and fully implement formal
           to access to specific NEMIS applications and modules.         procedures for conducting the NEMIS
                                                                         recertification process and retaining auditable
           Furthermore, we determined that FEMA Enterprise               records, in accordance with DHS policy. .
           Operations staff completed development of the
           technical infrastructure within NACS to support the
           recertification effort at the end of FY 2008. However,
           we determined that the FY 2008 recertification of
           NEMIS/NACS roles was not completed and FEMA
           initiated but did not complete the FY 2009
           recertification that was scheduled for completion by
           April 30, 2009.
 FEMA­     During FY 2009, we performed test work over              �                                              X
                                                                         Evaluate and, if appropriate, revise existing                              3
IT-09-13   security controls in place for Core IFMIS, NEMIS,             procedures over removal of separated user
           and the FEMA iPass/virtual private network (VPN)              access to IT systems to identify weaknesses
           remote access system, including follow-up testing on          that contribute to untimely removal of
           the prior year finding.                                       separated individuals from the information
                                                                         systems.
           Through comparison of active Core IFMIS, NEMIS,
           and iPass/VPN remote access accounts against a list of   �    Ensure that procedures and processes are
           FEMA employees that had separated from                        implemented consistently to remove system
           employment since October 1, 2008, we determined               and application accounts for all separated
           that 1 Core IFMIS account, 62 NEMIS accounts, and             users immediately upon notification of
           28 iPass/VPN accounts remained active and unlocked            separation, in accordance with FEMA, DHS,
           after the account holder’s separation from FEMA.              and National Institute of Standards and
           Additionally, of the 28 active iPass/VPN accounts, we         Technology (NIST) guidance.
           determined that 11 also had at least one active NACS


                                                                        23
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                            Recommendation                        New Issue
                                                                                                                                         Issue   Rating
           role, indicating active remote access privileges to both
           the FEMA network and NEMIS.

 FEMA­     During the FY 2009 follow-up testwork, we noted that       Implement compensating controls to address X    the                            2
IT-09-17   FEMA has a SOP that outlines the controls intended to      risk associated with the segregation of duties
           address the risk associated with the Core IFMIS            weakness related to developers making changes to
           developers having the ability to migrate changes to the    the production environment. Specifically, FEMA
           Core IFMIS production environment. The SOP, in             should develop and implement policies and
           particular, requires the locking and unlocking of the      procedures for conducting periodic reviews to
           ifmiscm account during the implementation of               verify that only authorized changes are made to the
           software changes into production by system                 Core IFMIS production directories and
           administrators. However, we determined that no             subdirectories by developers using the ifmiscm
           formal procedures or processes are documented for          account. Additionally, the policies and procedures
           performing reviews to verify that only authorized          should include requirements for retention of
           changes to the ifmiscm directory and sub-directories       auditable evidence of the reviews that are
           are implemented into production by the developers.         performed.
           Additionally, we determined that although informal
           reviews of the directories were performed during the
           fiscal year, they were not routinely completed, and
           documented evidence of the reviews performed was
           not retained.

 FEMA­     FEMA Enterprise Operations personnel informed us           �                                              X
                                                                           Revise the SOP, Monitoring Sensitive Access                               3
IT-09-19   that the SOP, Monitoring Sensitive Access to NEMIS,             to NEMIS, to ensure that it states that the
           was developed to outline the process for monitoring             scope of the procedures includes all servers
           sensitive access to the NEMIS operating system.                 defined in up-to-date system documentation as
           Based upon our review of the SOP, we noted that a list          supporting NEMIS system software within
           of NEMIS servers that are considered to be within the           system boundaries for the financial
           scope of the SOP are listed, but that specific hosts and        applications and modules.
           server designations are not clearly defined.          In
           particular, approximately 30 separate IT components        �    Acquire and deploy appropriate tools on
           are described, and certain servers supporting web­              system software and operating systems



                                                                          24
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                            Condition                                            Recommendation                      New Issue
                                                                                                                                       Issue   Rating
           facing applications for registration, applicant inquiry,        supporting the NEMIS financial applications
           and assistance processing are listed. However, based            to generate audit trails and records in
           on additional testwork and corroborative inquiry of             accordance with FEMA and DHS policy.
           NEMIS personnel, we determined that at least 170
           operating system servers for NEMIS are not                 �    Implement the SOP, Monitoring Sensitive
           comprehensively included in the scope of the SOP.               Access to NEMIS, by reviewing and retaining
                                                                           audit trails and records in accordance with
           Additionally, FEMA informed us that outlined                    FEMA and DHS policy.
           procedures for conducting the required reviews of
           audit trails every 3 days and retaining evidence for at
           least a year have not been implemented and the
           NEMIS operating system activity is not currently
           being logged or monitored. Additionally, we noted
           that no application or tool is currently in place to
           support the audit logging function on the NEMIS
           Linux server.
           Consequently, we concluded that FEMA has partially
           addressed the prior year recommendation by including
           review and retention requirements in the SOP for
           monitoring NEMIS activity. However, the SOP has
           not been implemented on the operating system
           software supporting NEMIS and does not include all
           NEMIS operating system servers within its scope.
 FEMA­     During our FY2009 follow-up testwork, we noted that        �    Continue and complete efforts required Xto                              3
IT-09-22   FEMA was unable to take corrective action to                    establish and implement an alternate
           establish and implement an alternate processing site            processing site for NEMIS according to DHS
           for the NEMIS application. Additionally, a current              4300A.
           waiver over the lack of an alternate processing site did
           not exist.                                                 �    Until an alternate processing site is
                                                                           established, develop and submit a waiver for
           FEMA security personnel described compensating                  approval in accordance with DHS policy
           controls surrounding the contingency planning


                                                                          25
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                          Appendix B

                                                    Department of Homeland Security
 

                                                Federal Emergency Management Agency 

                                                Information Technology Management Letter 

                                                           September 30, 2009

                                                                                                                                          Repeat    Risk
NFR #                             Condition                                              Recommendation                       New Issue
                                                                                                                                           Issue   Rating
           process. Specifically, FEMA management informed                    regarding    waivers,    and     ensure that
           us that in FY 2009 the NEMIS Contingency Plan was                  compensating controls over the alternate
           partially tested through an annual table-top exercise to           processing     site   are     effective and
           restore five of the NEMIS servers from backup tapes                documentation of their effectiveness is
           at the Mt. Weather Emergency Operations Center                     maintained as auditable records.
           (MWEOC).           Furthermore, FEMA management
           informed us that compensating controls were also
           provided through performance of full backups of
           critical NEMIS data on a regular basis and the transfer
           of these tapes to an offsite backup storage facility.
           However, during further testwork and analysis, we
           determined that there were weaknesses in the
           compensating controls described by FEMA
           management. In particular, we noted that while the
           contingency plan was tested, a full restore of all the of
           the NEMIS servers was not performed. Additionally,
           backup tapes for NEMIS are not fully tested on a
           periodic basis. (Please refer to NFRs FEMA-IT-09-24
           and FEMA-IT-09-25 for further information.)
 FEMA­     In FY 2009, we conducted follow-up procedures to              Periodically test NEMIS backup tapes atX a                                    2
IT-09-24   determine if FEMA had implemented corrective action           frequency that is in compliance with FEMA and
           for the prior year finding and determined that NEMIS          DHS policy.
           backup tapes were not regularly tested during FY
           2009.

 FEMA­      During our FY 2009 audit, we conducted follow-up             �    Update the NEMIS Contingency Plan so that X                              2
IT-09-25    procedures and determined that full-scale testing of              it meets the requirements of DHS policy for
            the NEMIS Contingency Plan, in accordance with                    high      impact     availability    systems.
            DHS requirements for high impact availability                     Additionally,    ensure    that   the    plan
            systems, has not been conducted. FEMA provided us                 comprehensively addresses the numerous sub­
            with the testing results of limited table-top testing that        systems within NEMIS so that detailed



                                                                             26
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                         Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                         Repeat    Risk
NFR #                            Condition                                            Recommendation                         New Issue
                                                                                                                                          Issue   Rating
            was performed to test the local restoration for 4 of          information exists over the current system
            approximately 170 servers that comprise NEMIS.                architecture, critical processing priorities,
            However, the DHS-approved waiver obtained in FY               detailed SOPs for systems recovery and other
            2008 that listed table-top testing as a compensating          required components in accordance with DHS
            control for FEMA’s inability to fully test NEMIS was          guidance.
            expired.
                                                                     �    Conduct documented annual tests of the
            In FY 2009, we also determined that the existing              NEMIS Contingency Plan that address all
            NEMIS Contingency Plan does not adequately and                critical phases of the plan, and update the plan
            comprehensively include information required by               with lessons learned, as necessary and in
            DHS policy for systems with high impact availability.         accordance with DHS and NIST requirements.
            For example, we noted the following weaknesses:
                                                                     �    If the NEMIS contingency plan cannot be
            �   Detailed information over NEMIS system                    tested in accordance with DHS guidance for
                architecture such, as the database and server             high impact availability systems, develop,
                names and information over the various modules            implement,     and    document       effective
                of NEMIS, was not appropriately documented to             compensating and mitigating controls.
                reflect the current operating environment.
            �   The contingency plan did not include detailed
                procedures necessary to fully restore the NEMIS
                application in the event of an emergency.
             � System/Application          Recovery       Priority
                Classification have not been defined.
             � Service Level Agreements and Memorandum of
                Understandings (MOU) were not included in the
                plan.
             � The Business Impact Analysis included in the
                contingency plan was completed in 2004 and
                was not adequately documented.
 FEMA­     In FY 2009, we performed follow-up testwork over          In accordance with DHS and FEMA policy,X                                         3
IT-09-28   NEMIS non-emergency system changes that occurred          ensure that when implementing the new NEMIS



                                                                         27
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                    Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                    Repeat    Risk
NFR #                            Condition                                           Recommendation                     New Issue
                                                                                                                                     Issue   Rating
           under the process established during the time frame of     non-emergency change control process that all
           October 1, 2008 to February 28, 2009 prior to the          required approvals are obtained prior to
           change in the NEMIS development contractors.               development and implementation of changes
           Specifically, of the 25 NEMIS non-emergency                into production. Additionally, ensure that the
           application level System Change Requests (SCR)             appropriate testing is conducted and that the
           tested, we noted the following exceptions:                 testing documentation is appropriately retained
                                                                      according to FEMA and DHS policy.
           �   7 of 25 SCRs did not obtain documented SCR
               approval prior to development;
           �   21 of 25 SCRs did not obtain documented
               Technical Development Laboratory (TDL)
               approval prior to implementation in the test
               environment;
           �   2 of 25 SCRs did not obtain documented
               Technical Review Committee (TRC) approval
               prior to implementation into production; and
           �   8 of 25 SCRs did not have testing documentation
               to demonstrate that testing occurred.

 FEMA­     We tested a selection of 3 NEMIS emergency                 In accordance with DHS and FEMA policy,X                                   3
IT-09-29   application level SCRs that occurred in the time frame     ensure that when implementing the new NEMIS
           of October 1, 2008 to February 28, 2009 before             emergency change management process that all
           NEMIS configuration management responsibility was          required approvals are obtained prior to
           transitioned to the new contractor. Of the 3 SCRs          development and implementation of changes
           tested, we noted that 1 was missing the required initial   into production. Additionally, ensure that the
           approval prior to moving the change into the TDL           appropriate testing is conducted and that the
           environment for testing.                                   testing documentation is appropriately retained
                                                                      according to FEMA and DHS policy.




                                                                        28
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                            Recommendation                        New Issue
                                                                                                                                         Issue   Rating
 FEMA­     In FY 2009, we performed follow-up test work and           Continuing with our prior year recommendation,
                                                                                                                   X                               1
IT-09-38   determined that the National Flood Insurance Program       document Traverse duties that are incompatible,
           (NFIP) contractor had documented system roles and          and develop and implement policies and
           had implemented capabilities for enforcing                 procedures for properly segregating incompatible
           segregation of duties for users within the Traverse        duties within the system when granting and
           application currently. Also, as a mitigating control,      maintaining access.
           the NFIP contractor reviews a User Log report
           generated by Traverse for each financial user’s system
           access, which is reviewed and signed off on every
           month to ensure that the appropriate privileges are
           assigned. However, incompatible duties that must
           remain segregated when granting and maintaining user
           access to the Traverse application have not been
           documented.
           We were also reviewed the Traverse Standard
           Operating Procedure (SOP) for Financial Processes
           and noted that it states that a Traverse user log is
           produced to show appropriate user access to perform
           accounting duties and usage of the Traverse
           accounting system. However, the SOP does not
           include policies and procedures regarding segregating
           incompatible duties within Traverse.
 FEMA­     The Traverse and Transaction Reporting and                 �    Complete the documentation and testing of Xthe                            2
IT-09-39   Recording Processing (TRRP) Contingency Plan has                TRRP and Traverse Contingency Plan, to
           not been tested, and a test of the system fail-over             include all critical phases of the plan in
           capability at the alternate processing site has not been        accordance with DHS policy requirements for
           conducted. Also, we did not receive the requested               high impact systems. In addition, conduct a
           NFIP Certification & Accreditation (C&A) package                test of the system fail-over capability at the
           that includes the Traverse and TRRP Contingency                 alternate processing site, and ensure that
           Plan and the test results. As a result, we determined           TRRP and Traverse processing is tested in
           that a current contingency plan for the TRRP and


                                                                          29
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                            Condition                                          Recommendation                         New Issue
                                                                                                                                        Issue   Rating
           Traverse applications does not exist.                         accordance with DHS guidance.
           At the time of our audit testwork, we were informed      �    Revise the NFIP Bureau and Statistical Agent
           that due to delays in implementation of the new               Disaster Recovery and Continuity of
           system of record, NFIP and the NFIP IT contractor             Operations Plan to incorporate the Traverse
           had initiated efforts FEMA’s Chief Information                and TRRP alternate processing facility and the
           Security Officer (CISO) to recertify and accredit the         TRRP critical data files in accordance with
           NFIP legacy system and update and test the Traverse           DHS guidance for high impact systems.
           and TRRP Contingency Plan and NFIP Bureau and                 Additionally, the revised plan should be tested
           Statistical Agent Disaster Recovery and Continuity of         and updated with lessons learned from the
           Operations Plan.                                              testing.
           Furthermore, the NFIP Bureau and Statistical Agent
           Disaster Recovery and Continuity of Operations Plan
           provided for auditor review does not incorporate the
           Traverse and TRRP alternate processing facility or
           TRRP critical data files.

 FEMA­     We determined that access for Core IFMIS Oracle          �    Review and revise the Office of the ChiefX                                 3
IT-09-45   database users was appropriately documented and               Financial Officer’s existing Procedures for
           authorized. Thus, this portion of the prior year              Granting Access to IFMIS to require
           recommendation, as it relates to the Core IFMIS               authorization of new and modified Core
           database, is closed.                                          IFMIS user accounts by supervisors, program
           Additionally, we reviewed a selection of 40 Core              managers, and contracting officers’ technical
           IFMIS Forms 20-24 (access request forms) for users            representatives (COTRs) in accordance with
           who were either new IFMIS users during the fiscal             DHS guidance. The requirements should also
           year or whose access profile changed during the fiscal        include the retention of Core IFMIS access
           year outside of the recertification process. We               authorization documentation.
           determined that of the 40 active application users       �    Develop and implement of policies and
           tested:                                                       procedures over periodic recertification of all
           �   Two users did not have a completed Form 20-24             user access to the Core IFMIS Oracle
               on file;                                                  database, and retain auditable records in



                                                                        30
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                           Condition                                           Recommendation                        New Issue
                                                                                                                                       Issue   Rating
           �   FEMA was unable to provide evidence that the             accordance with DHS policies and procedures
               initial account creation of 10 accounts during FY        as evidence that recertifications are conducted
               2009 was authorized; and                                 and completed periodically. Additionally, if
           �   FEMA was unable to provide evidence that                 the Core IFMIS/Grants and Training (G&T)
               modifications to account privileges for 10               IFMIS merger is performed in FY 2010,
               accounts were authorized.                                ensure that a recertification of IFMIS Oracle
                                                                        accounts is performed prior to the merger.
           FEMA management additionally informed us that
           recertification of IFMIS Oracle database accounts had
           not been performed during FY 2009.

           Consequently, we concluded that while certain
           corrective actions to address weaknesses over Core
           IFMIS account management have been implemented,
           FEMA has not consistently maintained documentation
           for initial account creation or subsequent account
           modification for the application, and FEMA has not
           developed or implemented a process to recertify
           accounts on the IFMIS Oracle database.
 FEMA­     We determined that a MOU and Interconnection             No recommendation is required for this weaknessX                               1
IT-09-46   Sharing Agreement (ISA) was documented, accepted,        that existed for the majority of FY 2009 because it
           and signed by FEMA and the Department of the             was remedied on April 22, 2009 when the MOU
           Treasury on April 22, 2009. Consequently, while the      and ISA were signed by FEMA and Department of
           prior-year recommendation was addressed, the             the Treasury management.
           interconnection was operating without authority for a
           majority of the fiscal year, and the NFR is re-issued.




                                                                      31
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                            Condition                                            Recommendation                       New Issue
                                                                                                                                        Issue   Rating
 FEMA­     During the FY 2009 audit, we were informed that            Complete planned corrective actions to developX                             3
IT-09-48   internal vulnerability scans are conducted every month     and implement an SOP that outlines the process
           on the NEMIS systems. However, FEMA personnel              for formally reporting and tracking resolution of
           informed us that identified vulnerabilities and related    weaknesses identified during internal NEMIS
           corrective actions are reported and tracked via emails     vulnerability scans in accordance with DHS
           and not documented in Plan of Action and Milestones        guidance.
           (POA&M).

 FEMA­     During FY 2009 follow-up testwork, we obtained             �                                              X
                                                                           Revise and implement policies and procedures                             3
IT-09-50   evidence that “superuser” activity reports for Core             that document requirements for configuring,
           IFMIS were appropriately reviewed by FSS personnel              retaining, and reviewing audit trails for the
           in accordance with FEMA and DHS policy.                         Core IFMIS application and database, in
           Consequently, this portion of our recommendation for            accordance with DHS policy. Additionally,
           prior year NFR FEMA-IT-08-50 is closed.                         ensure that all DHS requirements are met
           However, FSS personnel informed us that failed                  through this process, including appropriate
           database login attempts and activity performed by               supervisory review and retention.
           application users with the “superuser” role remain the     �    Implement configurations on the Core IFMIS
           only forms of activity logged and monitored for Core            application and database in accordance with
           IFMIS. Other activity on the application and database           DHS policy to ensure that audit logs
           required to be logged by DHS policy, including                  sufficiently record required auditable events
           successful logins, access modifications, and changes            and activities.
           to user profile, are not enabled within Core IFMIS.
           Additionally, we noted that a procedure does not exist
           to establish the process for reviewing and retaining
           evidence of these logs once the configurations are
           implemented.
           FEMA reported in the FY 2008 audit remediation plan
           that internal instructions describing the review process
           for these two reports were documented. We reviewed
           the SOP, Monitoring of IFMIS Database Audit Logs,
           and determined it addresses the process for reviewing


                                                                          32
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                           Condition                                           Recommendation                        New Issue
                                                                                                                                       Issue   Rating
           the daily Oracle failed login report. However,
           documented instructions concerning the review of
           weekly “superuser” reports were not provided to us
           during the audit.
 FEMA­     During our FY 2009 integrated test work, IT                                                             X                               3
                                                                    •    Revise and enforce the SOP for Handling of
IT-09-51   Enterprise Operations personnel informed us that the
                                                                         Oracle Audit Logs to ensure that the
           SOP for Handling of Oracle Audit Logs was
                                                                         procedures are developed and implemented in
           implemented for the databases specified in the SOP
                                                                         accordance with DHS guidance, to include:
           and that evidence of audit log reviews are retained.
           However, we noted that weaknesses in NEMIS                    �   All databases within the defined system
           database audit controls still exist, as follows:                  boundaries that support NEMIS financial
           •   During our inspection of the SOP, we noted that it            applications and modules within the scope
               requires the procedures to be performed for two               of the SOP,
               specific NEMIS databases, the National                    �   Requirements for audit logging and
               Processing Service Center (NPSC) database and                 retention of audit trails,
               the Consolidated Master database. However,                �   Periodic reviews of audit trails for NEMIS
               through additional testwork, we noted that                    databases, and
               NEMIS has at least 23 databases. Consequently,            �   Appropriate segregation of duties
               not all of the databases that comprise NEMIS are              principles.
               included within the scope of the SOP, and we
               were informed by IT Enterprise Operations            �    Implement      configurations    on     NEMIS
               personnel that no additional SOPs exist that              databases in accordance with DHS policy over
               address auditing logging for the remaining 21             required auditable events and activities.
               databases.
           •   The SOP has not been updated to require that
               successful logins, access modifications, highly
               privileged user account activity, and changes to
               user profiles are logged and reviewed.
           •   On four of the NEMIS databases related to
               financial processing that we selected for testing,


                                                                        33
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                   Department of Homeland Security
 

                                               Federal Emergency Management Agency 

                                               Information Technology Management Letter 

                                                          September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                            Recommendation                        New Issue
                                                                                                                                         Issue   Rating
               we determined that configurations are not fully
               enabled so that a review of audit trails and activity
               defined by DHS policy requirements can be
               completed.
           •   Based on our review of audit log documentation,
               we noted that reviews of audit logs for NEMIS
               databases are performed by the database
               administrators (DBAs) who have been assigned
               administrator privileges to administer the
               databases. Thus, we determined that database
               audit log review duties are not appropriately
               segregated from DBA duties.

 FEMA­     In FY 2009, we performed follow-up testwork and             Dedicate the appropriate resources to complete X                              3
IT-09-52   were informed that FEMA is currently in the process         efforts to document, finalize, and implement
           of updating the NEMIS patch management policy and           comprehensive patch management policies and
           that the finalized policy had not been implemented.         procedures for NEMIS, in accordance with DHS
           However, FEMA could not provide us with a copy of           policy. Additionally, ensure that these procedures
           the requested draft policy that was reported as under       include requirements for responding to DHS
           development for our review. Based on additional             Security Operations Center (SOC) and DHS
           inquiry, we also determined that the timeframe for          Computer Security Incident Response Center
           implementing patches on FEMA systems has not been           (CSIRC) notifications to ensure compliance with
           established, in accordance with DHS guidance.               the timely implementation of required patches.




                                                                         34
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                   Department of Homeland Security
 

                                               Federal Emergency Management Agency 

                                               Information Technology Management Letter 

                                                          September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                            Condition                                            Recommendation                      New Issue
                                                                                                                                       Issue   Rating
 FEMA­     During our FY 2009 audit, we reviewed FEMA’s                Ensure that NEMIS SSP is updated in accordance
                                                                                                                    X                            2
IT-09-53   Remediation Plan, and we noted that FEMA                    with DHS policy so that the system’s boundaries,
           management had reported that corrective action to           components, and responsibilities surrounding the
           update the NEMIS SSP had been fully implemented.            various subsystems and major applications of
           We obtained the NEMIS SSP dated February 16, 2009           NEMIS are accurately and comprehensively
           for our review and noted that the plan had been             documented in the plan.
           revised since our prior year audit. However, upon
           further inspection, we determined that the current plan
           does not fully document the system’s boundaries,
           define all of the NEMIS subsystems and major
           applications, nor establish security responsibilities for
           the various system components.

 FEMA­     In FY 2009, we performed testwork over Traverse             Ensure the implementation of an updated version
                                                                                                                    X                              2
IT-09-54   configuration management. Upon inspection of the            of the current Traverse configuration management
           System Change Control Procedures, that address              procedures that comprehensively addresses FEMA
           Traverse configuration management, we noted that the        and DHS requirements.
           procedures outline steps for controlling changes
           during the change control process for Traverse.
           However, the procedures do not include
           comprehensive configuration management guidance
           that addresses the following elements required by
           FEMA and DHS policy:
           �   configuration identification
           �   configuration control
           �   version control
           �   configuration status accounting
           �   configuration audits
           �   establishment of a Change Control Board (CCB)
               or TRC for evaluating changes prior to




                                                                         35
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                            Condition                                           Recommendation                        New Issue
                                                                                                                                        Issue   Rating
               production.
 FEMA­     Based on observations conducted with FSS and G&T          �    Revise the formal process for reviewing and         X                     3
IT-09-56   IFMIS database personnel, we identified the following          disabling inactive G&T IFMIS Oracle
           weaknesses in database security controls:                      database user accounts to adhere to DHS
                                                                          policy over disabling inactive accounts on
           �   A manual review of inactive G&T IFMIS
                                                                          high impact systems.
               database accounts is performed on a monthly
               basis to disable accounts which have not been         �    Configure all G&T IFMIS Oracle database
               used in the past 90 days. However, since IFMIS             user accounts to adhere to DHS policy for
               is categorized as a high impact system, reviews            passwords and authenticator controls.
               are required to identify accounts that have been
               inactive for 45 days.                                 �    Establish a formal process for granting
           �   Strong passwords are not required and/or enforced          emergency and temporary IFMIS G&T
               for G&T IFMIS database accounts.                           database access that includes segregation of
                                                                          duties considerations and appropriate approval
           �   Emergency and temporary access to the G&T
                                                                          from FEMA management in accordance with
               IFMIS database, including access for contractor
                                                                          DHS policy.
               development personnel, is approved by the FSS
               Chief and/or their staff, not by the FEMA
               CISO/Information System Security Manager
               (ISSM) or a designee, as required by DHS policy.

 FEMA­     Based on observations conducted with FSS and G&T          �    Configure the G&T IFMIS databases to log                                  3
IT-09-57   IFMIS database personnel, we determined that Oracle            events and retain audit records in accordance
           database audit trails are not configured to capture any        with DHS policy; and
           activity, including failed login attempts or
           administrator-level actions.                              �    Develop and implement policies and
                                                                          procedures surrounding the requirements for
                                                                          G&T IFMIS database audit logging to include
                                                                          the periodic review of database audit logs in
                                                                          accordance with DHS policy.




                                                                         36
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                           Condition                                           Recommendation                        New Issue
                                                                                                                                       Issue   Rating
 FEMA­     Based on corroborative inquiry with FSS and              �    Establish a formalized process for the              X                   3
IT-09-58   application and database administrators, we concluded         recertification of the G&T IFMIS application
           that a management review to validate the                      and database accounts or include G&T IFMIS
           appropriateness of G&T application and Oracle                 in the scope of the formalized processes for
           database user accounts has not been formally                  the recertification of Core IFMIS application
           implemented or performed by FSS this fiscal year.             and database accounts. Additionally, ensure
           Additionally, FSS management further informed us              that the established processes are developed
           that no recertification of accounts was conducted when        and implemented in accordance with DHS
           the application was acquired and brought online at            guidance.
           FEMA in FY 2007 and has not been conducted since.
                                                                    �    Conduct an immediate recertification of user
                                                                         account access on the G&T IFMIS application
                                                                         and Oracle database to validate the continued
                                                                         appropriateness    of   access    as    being
                                                                         commensurate with job responsibilities.
 FEMA­     In FY 2009, we performed test work over the G&T          �    Limit the contracted developers’ access to the      X                     3
IT-09-59   “ifmiscm” account to determine the controls in place          G&T IFMIS production environment to “read
           for the migration of changes into production. The             only,” and segregate the responsibility for
           “ifmiscm” account is used by the FEMA development             deploying application code changes into
           contractor to deploy changes into the UNIX                    production from the contractor to an
           production environment. Per our review, we noted              independent control group.
           that the G&T IFMIS application programmers
           responsible for maintaining and developing changes       �    If business need requires that the segregation
           for the G&T IFMIS application are also responsible            of duties cannot be immediately implemented,
           for migrating application code changes into the               document policies and procedures to mitigate
           production environment using the “ifmiscm” account.           the risk associated with the segregation of
           Additionally, when we inspected the account, the              duties weakness noted in accordance with
           G&T “ifmiscm” account was not locked on May 15,               DHS guidance.
           2009, which allowed the contractor unrestricted access
           to the production environment. We were further
           informed by FEMA personnel that access to that



                                                                        37
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                  Appendix B

                                                Department of Homeland Security
 

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2009

                                                                                                                                  Repeat    Risk
NFR #                          Condition                                         Recommendation                       New Issue
                                                                                                                                   Issue   Rating
           account is not limited or monitored on a periodic
           basis.



 FEMA­     During our testwork, we concluded that the “Legacy     Immediately work with FEMA’s CISO to                   X                     2
IT-09-60   NFIP IT System” C&A pertaining to the Traverse         complete the recertification and accreditation of
           application, TRRP application, and NFIP Local Area     the NFIP legacy system in accordance with
           Network (LAN) expired on October 4, 2008.              applicable DHS policies and Federal guidance.
           Consequently, the legacy system has since been
           operating without a current Authorization to Operate
           (ATO). Furthermore, we were not provided the
           requested NFIP C&A package consisting of the
           following artifacts:
           �   Federal Information Processing Standard (FIPS)
               199 Categorization
           �   Privacy Impact Assessment
           �   E-Authentication
           �   Risk Assessment
           �   SSP
           �   Contingency Plan
           �   Security Test and Evaluation
           �   Contingency Plan Testing
           �   Security Assessment Report
           �   ATO
           �   Annual NIST SP 800-53-based Self-Assessments

 FEMA­     The G&T instance of IFMIS was brought online at        �    Formally designate an ISSO and DAA for            X                     3
IT-09-61   FEMA in FY 2007 after acquisition from the                  G&T IFMIS.
           Department of Justice. However, we determined that
           a C&A of the system had not been performed, and the    �    Immediately work with FEMA’s Information



                                                                      38
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                            Condition                                           Recommendation                        New Issue
                                                                                                                                        Issue   Rating
           system has not received an ATO. Specifically, the              Security Office to certify and accredit the
           following C&A elements have not been completed,                G&T IFMIS instance in accordance with
           documented, or approved for G&T IFMIS and will not             applicable DHS policies and Federal guidance.
           be for the remainder of the fiscal year:                       If FEMA management makes a business
                                                                          decision to conduct a C&A of IFMIS after the
           �   FIPS 199 categorization                                    merger and not over the existing G&T IFMIS
           �   Privacy Impact Assessment                                  instance, as a mitigating control, immediately
           �   E-Authentication                                           conduct an assessment of key controls to
           �   Risk Assessment                                            identify security weaknesses and determine
           �   SSP                                                        the operational risks related to IFMIS G&T.
           �   Contingency Plan                                           The weaknesses identified should be
                                                                          documented with plans for accelerated
           �   Security Test and Evaluation                               remediation efforts or related risks should be
           �   Contingency Plan Testing                                   formally accepted by FEMA in accordance
           �   Security Assessment Report                                 with DHS guidance.
           �   ATO
           �   Annual NIST SP 800-53-based Self-Assessments
           In addition, we determined that at the time of our test
           procedures, neither an ISSO nor a Designated
           Authorizing Authority (DAA) had been formally
           designated for the G&T instance of IFMIS by FEMA
           management.

 FEMA­     We reviewed the VPN Rules of Behavior for Users           �    Revise and implement policies and procedures        X                     3
IT-09-62   Behind Corporate Firewalls, dated December 5, 2002,            for documenting, reviewing, and approving
           and noted that individual VPN access request forms             individual VPN user accounts for employees
           are required to be completed, approved by managers,            of external entities requiring access to the
           and submitted to the National Help Desk, Enterprise            FEMA network via VPN access, and ensure
           Service Desk (ESD). However, we noted that the                 that sufficient resources are dedicated to
           requirements do not include approval by the system             appropriately authorize accounts on behalf of
           owner or a designated representative, as required by           the system owner or a designee, according to



                                                                         39
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                 Appendix B

                                             Department of Homeland Security
 

                                         Federal Emergency Management Agency 

                                         Information Technology Management Letter 

                                                    September 30, 2009

                                                                                                                                 Repeat    Risk
NFR #                        Condition                                          Recommendation                       New Issue
                                                                                                                                  Issue   Rating
        DHS policy.                                                  FEMA and DHS policy.
        We reviewed a blank VPN Access Request Form and         �    Develop and implement policies and
        noted that an approval block titled “For FEMA Office         procedures in accordance with DHS policy to
        of Cyber Security (OCS) Use Only” is included and            perform a periodic recertification of all VPN
        that the form states that all VPN requests must be           user access and retain auditable records as
        approved by the FEMA OCS. We reviewed a                      evidence that recertifications are conducted
        selection of 25 completed forms for active VPN user          and completed periodically.
        accounts and determined that, while the forms were
        approved by the requestor’s manager or supervisor,
        none of the forms had an approval noted by OCS or an
        appropriate designated representative of the system
        owner. Additionally, we were informed by FEMA IT
        security personnel that OCS, as referred to in the
        Rules of Behavior and the request form, does not
        currently exist as a FEMA Division due to FEMA’s
        reorganization. Consequently, existing policies and
        procedures do not reflect the current security
        management structure at FEMA nor do they assign
        responsibility to a current entity within the agency.
        Additionally, we were informed that a periodic
        recertification of FEMA VPN access accounts is not
        currently performed to ensure that remote access is
        still necessary and appropriate for each individual.
        VPN accounts are managed within the FEMA LAN,
        specifically the Active Directory environment, and
        subsequently added to the Cisco Access Control
        Server (ACS) that permits VPN access. However,
        through test work conducted over the FEMA LAN, we
        determined that a recertification of network user
        accounts is not performed.




                                                                    40
        Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                         Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                         Repeat    Risk
NFR #                           Condition                                             Recommendation                         New Issue
                                                                                                                                          Issue   Rating
 FEMA­     We noted the following weaknesses in the process for      �    Revise and implement policies and procedures          X                   3
IT-09-63   authorizing remote VPN access to external                      for documenting, reviewing, and approving
           organizations, including state emergency management            the security controls in place over non-DHS
           agencies and FEMA contractors:                                 equipment connecting to the FEMA network
                                                                          via VPN access. Specifically, FEMA should
           �   The existing documentation that defines the
                                                                          clearly define and document a formalized
               process for granting and maintaining VPN access
                                                                          process for the authorization, review, and
               to the FEMA network does not include
                                                                          maintenance of VPN access agreements
               requirements for administering the site survey
                                                                          between FEMA and external entities.
               process, including requirements for the
                                                                          Additionally, ensure that within the policies
               authorization of the sites surveys, recertification
                                                                          and procedures, appropriate roles and
               of site surveys, and the security requirements
                                                                          responsibilities over the process are defined to
               associated with the various aspects of the process.
                                                                          include authorizations by the Component
           �   FEMA has not formally identified and                       CISO/ISSM to connect to non-DHS
               documented the roles and responsibilities                  equipment.
               necessary within FEMA to properly authorize and
               administer VPN access to individuals using non-       �    Draft and formalize ISAs, MOUs, and MOAs
               DHS equipment to access the FEMA network.                  delineating security responsibilities by FEMA
                                                                          and external organizations when connecting
           Additionally, we noted that the current process in
                                                                          through non-DHS equipment to the FEMA
           place for granting remote access to the FEMA network
                                                                          network via VPN access. Such agreements
           through VPN is not in compliance with FEMA, DHS,
                                                                          should include evidence of validation by
           and NIST guidance. Specifically, we noted the
                                                                          FEMA management that security controls in
           following weaknesses:
                                                                          place on external entity networks are
           �   Access for state emergency management agencies             appropriate and satisfy requirements for
               and FEMA contractors to load the VPN client                minimum security controls on DHS and
               onto state or contractor owned equipment to                FEMA systems prior to connection.
               connect to the FEMA LAN is approved by the
                                                                     �    Ensure that agreements related to VPN access
               SOC. However, DHS policy requires that any
                                                                          are reviewed and recertified on a periodic
               non-DHS equipment connecting to a DHS
                                                                          basis, specifically, when a major system
               network must be authorized by the Component
                                                                          change occurs or every three years, in
               CISO/ISSM.


                                                                         41
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                 Appendix B

                                              Department of Homeland Security
 

                                          Federal Emergency Management Agency 

                                          Information Technology Management Letter 

                                                     September 30, 2009

                                                                                                                                 Repeat    Risk
NFR #                        Condition                                           Recommendation                      New Issue
                                                                                                                                  Issue   Rating
        �   Two-factor authentication is not used for VPN             accordance with DHS policy.
            access, as required by DHS policy.
                                                                 �    Implement      and     require    two-factor
        �   FEMA’s VPN Rules of Behavior for Users Behind             authentication for all remote access to the
            Corporate Firewalls, dated December 5, 2002,              FEMA network, including VPN and all other
            requires an Inter-Agency VPN Agreement                    tools used for remote access, in accordance
            between FEMA and external organizations before            with DHS policy and FIPS 140-2.
            permitting VPN access to the FEMA network
            through non-Government issued equipment such
            as contractor or state agency workstations.
            However, we determined that the Inter-Agency
            VPN Agreements have not been documented and
            that this requirement is inconsistent with DHS
            policy, which requires ISAs or Memoranda of
            Understanding/Memoranda          of    Agreement
            (MOUs/MOAs) prior to establishing a VPN
            connection from equipment operating on an
            external network.
        �   FEMA’s approval of requests for network
            connections to external organizations through
            VPN access for remote users is based on security
            control information submitted by the external
            entities via site surveys. Based upon our review
            of existing site surveys and the site survey
            process, we noted that site surveys were outdated,
            did not contain the level of technical granularity
            describing the external network security controls
            required to appropriately approve a connection to
            the FEMA LAN, and were not independently
            verified for accuracy by FEMA. Additionally, we
            determined that DHS guidance indicates that a
            single ISA may be used for multiple connections



                                                                     42
        Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                            Condition                                            Recommendation                       New Issue
                                                                                                                                        Issue   Rating
               provided that the security accreditation is the same
               for all connections covered by that ISA.
               However, we determined that the security
               accreditation of multiple connecting networks
               listed in single ISAs with external entities is not
               being evaluated by the FEMA SOC to ensure the
               security     requirements      are     appropriately
               implemented.

 FEMA­     The Core IFMIS database is not configured to retain a      �    Configure the Core IFMIS Oracle database to        X                     2
IT-09-64   history of account passwords in order to prevent reuse.         enforce DHS policy requirements regarding
           However, DHS guidance requires passwords to be                  the reuse of user passwords.
           configured so that users cannot reuse the last eight
           passwords.                                                 �    Develop and implement procedures to ensure
                                                                           that those with systems administration and
                                                                           security responsibilities over the Core IFMIS
                                                                           database environment are made aware of
                                                                           DHS, FEMA and Federal system security
                                                                           requirements and guidance and are properly
                                                                           trained in those requirements and guidance.




                                                                          43
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                            Condition                                           Recommendation                       New Issue
                                                                                                                                       Issue   Rating
 FEMA­     We determined that of 40 access request forms (Form       Review and revise the Office of the Chief               X                   3
IT-09-65   20-24) for active G&T IFMIS application users             Financial Officer’s existing Procedures for
           selected:                                                 Granting Access to IFMIS to specifically require
                                                                     the authorization of new and modified G&T
           �   FEMA was unable to provide documented                 IFMIS user accounts by supervisors, program
               evidence that the initial account creation of 11      managers, and/or contracting officers’ technical
               accounts in FY2009 were authorized; and               representatives for the G&T IFMIS application
           �   FEMA was unable to provide documented                 and database in accordance with DHS guidance.
               evidence that modifications to account privileges     The requirements should also include retention
               for 11 accounts were authorized.                      guidance for G&T IFMIS access authorization
           Additionally, we requested for review a selection of      documentation.
           eight G&T IFMIS Oracle Database User Access
           Control Forms for G&T IFMIS Oracle database users
           whose accounts were created during the fiscal year.
           We determined that of the eight users selected, two did
           not have documented evidence that the accounts were
           authorized or appropriately approved prior to creation.
 FEMA­     Based on observations conducted with IT Enterprise        �    Configure all NEMIS Oracle databases to            X                     3
IT-09-66   Operations database personnel over the four databases          enforce the DHS policy for passwords and
           selected for test work that process NEMIS financial            authenticator control requirements, including
           data, we determined that DBA account passwords are             expiration, reuse, and length and complexity.
           not required to be “strong passwords.” Specifically:
                                                                     �    Develop and implement procedures to ensure
           �   No minimum password length is enforced.                    that those with systems administration and
           �   Password complexity is not required so that                security responsibilities over the NEMIS
               passwords     include    a     combination     of          database environment are made aware of
               upper/lowercase letters, numbers, and special              DHS, FEMA and Federal requirements and
               characters.                                                guidance and are properly trained in those
           �   Reuse of previous passwords is not prohibited.             requirements and guidance.
           �   Passwords are not configured to expire and forced
               to be changed after a predetermined length of


                                                                         44
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                            Condition                                          Recommendation                        New Issue
                                                                                                                                       Issue   Rating
               time.



 FEMA­     Based on observations conducted over the FEMA             Implement the plan to configure the FEMA LAN            X                     2
IT-09-67   domain policy and an end-user workstation, we             domain security policy to automatically activate a
           determined that workstations are configured to            password-protected screensaver on end-user
           activate a password-protected screensaver after 15        workstations after five minutes of inactivity,
           minutes of inactivity, rather than the five minute        consistent with DHS policy.
           inactivity threshold required by DHS policy.

 FEMA­     We determined that a C&A of the Payment and               �    Formally designate an ISSO and DAA for             X                     3
IT-09-68   Reporting System (PARS) was not performed and the              PARS.
           system had not received an ATO. Specifically, no
           evidence exists to support that the required C&A          �    Immediately work with FEMA’s Chief
           elements have been completed, documented, or                   Information Security Office to certify and
           approved for PARS.                                             accredit PARS in accordance with applicable
                                                                          DHS policies and Federal guidance.
           In addition, we determined that at the time of our test
           procedures, neither an ISSO nor a DAA had been
           formally designated by FEMA management for PARS.
 FEMA­     Upon inspection of the NFIP Technical Services            Ensure implementation of an updated version of          X                     2
IT-09-69   Department Production Systems Control Unit                the current TRRP configuration management
           Procedures, that addresses TRRP configuration             procedures that comprehensively addresses FEMA
           management, we noted that the procedures outline          and DHS requirements. The updated procedures
           steps for controlling changes during the change control   should require initial approvals of OSRs and
           process for TRRP. However, the procedures do not          establish a process for obtaining CCB and TRC
           include a comprehensive configuration management          approvals prior to implementing changes into
           guidance that addresses the required elements for a       production, in accordance with DHS policies and
           comprehensive configuration management plan in            procedures.
           accordance with FEMA and DHS policy.
           Furthermore, we performed testwork over initial


                                                                         45
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                   Department of Homeland Security
 

                                               Federal Emergency Management Agency 

                                               Information Technology Management Letter 

                                                          September 30, 2009

                                                                                                                                       Repeat    Risk
NFR #                            Condition                                            Recommendation                       New Issue
                                                                                                                                        Issue   Rating
           approval, testing, and implementation of a selection
           of 25 TRRP changes made in FY 2009 and noted the
           following exceptions:
           �   16 out of the 25 changes did not obtain initial
               Operating System Request (OSR) approvals prior
               to developing the change.
           �   All 25 changes did not obtain TRC or CCB
               approval for production implementation.

 FEMA­     We were informed by the NFIP contractors that no            Document, finalize, and implement comprehensive        X                     2
IT-09-70   patch management policy and procedures exist for the        patch management policies and procedures for the
           Windows operating system which supports the                 NFIP LAN and the Traverse operating system, in
           Traverse application and the NFIP LAN.                      accordance with DHS policy. Additionally, ensure
                                                                       that this procedure includes requirements for
           Additionally, we determined that while NFIP has
                                                                       authorizing, testing, and approving patches to be
           documented the Traverse System Software Procedures
                                                                       implemented into production and responding to
           which outline the process to initiate, approve, test, and
                                                                       DHS SOC and DHS CSIRC notifications to ensure
           implement operating system upgrades into production,
                                                                       compliance with the timely implementation of
           the procedures do not specifically address patch
                                                                       required patches.
           management. Furthermore, the procedures do not
           provide robust guidance for approving, installing, and
           testing patches, according to DHS requirements.




                                                                         46
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                            Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                            Repeat    Risk
NFR #                            Condition                                             Recommendation                           New Issue
                                                                                                                                             Issue   Rating
 FEMA­     During our after-hours physical testing, we identified     Review the effectiveness of existing security                X                   2
IT-09-71   42 written unprotected passwords, 4 external memory        awareness programs designed to protect electronic
           drives, 2 documents labeled as ‘For Official Use Only      and physical data, and ensure that individuals are
           (FOUO)’, 2 badges, 2 instances of unsecured                adequately instructed and reminded of their roles
           Personally Identifiable Information (PII), 1 instance of   in the protection of both electronic and physical
           a written server name with an Internet Protocol (IP)       FEMA data and hardware. Additionally, FEMA
           address, and 1 unsecured laptop.                           employees and contractors should be made aware
                                                                      of the need to protect PII, as well as information
                                                                      marked “FOUO.”

 FEMA­     Through discussions with FSS personnel, we                 �    Submit a revised DHS Waivers and                        X                     3
IT-09-72   determined that the description of mitigating and               Exceptions Request Form that accurately
           compensating controls noted in the approved DHS                 reflects the mitigating and compensating
           Waivers and Exceptions Request for Core IFMIS does              controls in place on the Core IFMIS
           not accurately reflect the operating environment for            environment to justify exception from DHS
           the Core IFMIS application and database.                        policy concerning audit logging on the Core
           Specifically:                                                   IFMIS database.
           �   Successful database connections are not logged, as     �    Ensure that future waiver and exception
               described.                                                  requests involve the input, review, and
           �   Superuser activity is monitored at the application          approval of system owners and administrators
               level. However, no other audit logs or records              to provide adequate assurance that the
               described in the request are reviewed.                      documented      risk    mitigation      strategies
           �   The exception request states that “direct access to         accurately reflect security controls in place.
               the IFMIS database is restricted to approximately
                                                                      �    Ensure that FEMA establishes a more formal
               70 users, and is read-only in nature for the
                                                                           communication     process     for  providing
               purposes of running ClearAccess report
                                                                           approved waivers back to system owners so
               functions;” however, direct access to the database
                                                                           that any requirements for the implementation
               includes DBAs with read/write privileges in
                                                                           of additional controls are reviewed and
               addition to ClearAccess read-only users.
                                                                           executed appropriately and timely.
           �   Approval was granted by the DHS CISO with an
               added condition that FEMA periodically capture


                                                                          47
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                          Appendix B

                                                Department of Homeland Security
 

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2009

                                                                                                          Repeat    Risk
NFR #                         Condition                                  Recommendation      New Issue
                                                                                                           Issue   Rating
            the audit records at a database level and compare
            them to the application logs to ensure that data is
            correct at the application level. However, the
            requirement had not been implemented at the time
            of our FY 2009 audit procedures.
        Consequently, we concluded that the request for an
        exception to DHS policy requirements related to audit
        logging for the Core IFMIS Oracle database was
        approved by the DHS CISO based on inconsistent or
        inaccurate information about the system environment
        and current controls in place to mitigate the risk of not
        implementing DHS policy. Additionally, the DHS
        CISO’s condition for granting approval has not been
        met by FEMA.




                                                                    48
        Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                            Recommendation                        New Issue
                                                                                                                                         Issue   Rating
 FEMA­     Based on observations conducted with FEMA IT              �    Develop and implement policies and                   X                   3
IT-09-73   security personnel and IFMIS UNIX system                       procedures over the monitoring of system
           administrators, we determined that the “root” account          administrator and highly-privileged account
           access is not properly restricted and system                   activity in the Core and G&T IFMIS UNIX
           administrator activities are not appropriately logged.         environments, in accordance with FEMA and
           Specifically, the password to access the UNIX “root”           DHS policy.
           administrator account is shared between the
           administrators and local access to the root account is    �    Implement technical controls to restrict access
           not locked down. Additionally, FEMA has not                    to the “root” account through the use of
           enforced the use of the switch user command, “sudo,”           “sudo” to ensure that explicitly authorized
           which requires system administrators to login with             individuals only have access to the account.
           their userID and switch over to the root account to
                                                                     �    Ensure that system logs and records of
           ensure who is accessing the account is logged and
                                                                          administrator activity, including “sudo”
           authorized.
                                                                          activity related to the “root” account, are
           Additionally, we determined that system logs and               retained and reviewed by IT security
           reports of administrator activity, including the “sudo”        management independent of the system
           log, which monitors actions performed by                       administration team.
           administrators while acting as the “root” account, were
           not reviewed by FEMA management personnel
           independent of the system administration staff.
 FEMA­     FEMA's systems inventory does not include all             Update the FEMA system inventory to include the           X                     3
IT-09-74   financial systems. Specifically, G&T IFMIS and            G&T instance of IFMIS, as well as PARS.
           PARS were not included in the inventory provided to       Comply with DHS policy and consistently follow
           us during the audit by FEMA, and neither system is        procedures for updating and monitoring the
           being tracked via the Trusted Agent Federal               FISMA system inventory to ensure that all new
           Information Security Management Act.                      and current systems are accounted for with
                                                                     complete and accurate information, in accordance
                                                                     with NIST and DHS policy.




                                                                         49
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                           Recommendation                         New Issue
                                                                                                                                         Issue   Rating
 FEMA­     During the audit, we determined that review of access     Document defined and repeatable procedures for            X                   1
IT-09-75   to the NFIP data center is performed on an ad-hoc         the review of physical access to the NFIP data
           basis. However, there are no policies or procedures       center in accordance with DHS and NIST
           that require periodic and documented recertification of   guidance.     These procedures should, at a
           data center access at a defined frequency.                minimum, define the frequency of this review and
                                                                     what documentation should be maintained as
                                                                     evidence of that review.
 FEMA­     Based on testwork performed and inquiries conducted       Establish a formal process for granting emergency         X                     3
IT-09-76   with FSS and Core IFMIS database personnel, we            and temporary Core IFMIS database access that
           determined that emergency and temporary access to         includes segregation of duties considerations and
           the database, including access for contractor             appropriate approval from FEMA management in
           development personnel, is approved by the FSS Chief       accordance with DHS policy.
           and/or their staff, rather than by the FEMA
           CISO/ISSM or a designee, as required by DHS policy.
           Additionally, we determined that the Core IFMIS
           Oracle database access granted to contracted
           development personnel to implement database changes
           to Core IFMIS conflicts with segregation of duties
           principles.

 FEMA­     FEMA OCFO and NFIP financial systems                      Define and implement formal and repeatable                X                     2
IT-09-77   development and acquisition projects were undertaken      processes to ensure that financial systems
           and progressed without (1) proper oversight of and        development and acquisition projects are
           direction to contractors, (2) development and approval    conducted in compliance with DHS systems
           of required project documentation, (3) the continual      engineering life cycle (SELC) and acquisition
           involvement of the Office of the Chief Information        requirements as well as Federal guidance. The
           Officer (OCIO) to ensure appropriate consideration        processes should include, but are not limited to,
           and integration of IT security, and (4) the joint         formal      approval     of    required      project
           communication and decision-making of FEMA                 documentation, sufficient contractor oversight,
           OCFO, OCIO, and NFIP management.                          definitions of project roles and responsibilities so
                                                                     that decision making includes the appropriate



                                                                       50
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                Appendix B

                                                Department of Homeland Security
 

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2009

                                                                                                                                Repeat    Risk
NFR #                          Condition                                         Recommendation                     New Issue
                                                                                                                                 Issue   Rating
                                                                  involvement of all stakeholders and relevant
                                                                  FEMA management, establishment of Acquisition
                                                                  Decision Events at each SELC phase, and
                                                                  integration of IT security considerations
                                                                  throughout all project phases.


 FEMA­     Based on our testwork, we concluded that NEMIS         �    Document and implement a comprehensive          X                     3
IT-09-78   configuration management is not adequately                  configuration management plan for NEMIS
           controlled, documented, or managed throughout the           which clearly defines the roles and
           lifecycle of the FEMA configuration management              responsibilities for FEMA and contractor
           process. Specifically, we identified the following          personnel managing the development of non-
           weaknesses:                                                 emergency and emergency system changes, in
                                                                       compliance      with  DHS    and    FEMA
            �   NEMIS configuration management policy and
                                                                       requirements.
                procedures       which      outline    FEMA’s
                responsibilities and processes for initiating,    �    Ensure that NEMIS non-emergency and
                monitoring, testing, and approving NEMIS non-          emergency system changes are tracked,
                emergency and emergency changes that are               controlled,   properly   documented,  and
                developed under the new development contract           managed by FEMA personnel throughout the
                have not been documented and approved by               lifecycle of the configuration management
                FEMA management, in accordance with DHS                process in accordance with DHS and FEMA
                and FEMA policy.                                       guidance and policies.
            �   Once the new systems development contractor
                delivers developed changes to FEMA, FEMA
                does not monitor and track NEMIS SCRs
                throughout the configuration management
                lifecycle, from initial approval through
                implementation into the production environment.
                Instead, FEMA only tracks and collects
                documentation for SCRs from Project Managers
                at the final approval stage when the request is



                                                                      51
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                           Condition                                            Recommendation                         New Issue
                                                                                                                                         Issue   Rating
                received by the TRC.




 FEMA­     Based on observations conducted over the FEMA            �    Revise the FEMA LAN and AD account                    X                     3
IT-09-79   LAN and the Microsoft Windows Active Directory                policies to require strong passwords, in
           (AD) environment, we concluded that the following             accordance with DHS policy.
           weaknesses exist:
                                                                    �    Finalize and fully implement the Non-User
           �   The FEMA LAN domain security policy does not              Specific, Shared, Other Group Type Accounts
               enforce password requirements in accordance with          SOP. Specifically, FEMA should ensure that
               DHS policy.                                               policies and procedures over the granting and
           �   Policies and procedures over the authorization of         managing of access for group/shared/service
               FEMA LAN accounts, independent of NACS                    and administrator-level user accounts not
               approval process outlined in the Non-User                 authorized through NACS are documented and
               Specific, Shared, Other Group Type Accounts               implemented consistently.         Additionally,
               SOP, have not been finalized or implemented.              policies and procedures should ensure that, in
               Additionally, we determined that initial access           accordance with DHS policy, a clear business
               authorizations for a selection of AD accounts were        need is established and documented justifying
               not authorized.                                           the creation and use of these types of accounts.
           �   A periodic recertification of FEMA LAN access
                                                                    �    Develop and implement a formal process for
               accounts is not currently performed to ensure that
                                                                         performing a periodic recertification of user
               access is still necessary and appropriate for each
                                                                         access to the FEMA LAN which defines
               individual.
                                                                         requirements and addresses users not
           �   We compared a listing of active FEMA LAN/AD               accounted      for   during    the     planned
               accounts against a list of FEMA employee                  recertification of NEMIS application access.
               separations that had occurred since October 1,
               2008. Based on our test work, we determined that     �    Evaluate and, if appropriate, revise existing
               36 accounts remained active and unlocked after            procedures over removal of separated user
               the account holder’s separation from FEMA.                access to ensure that all separated users on the
                                                                         FEMA LAN are removed in a timely manner.



                                                                        52
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                    Appendix B

                                                Department of Homeland Security
 

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2009

                                                                                                                                    Repeat    Risk
NFR #                          Condition                                          Recommendation                        New Issue
                                                                                                                                     Issue   Rating
                                                                       Ensure that procedures and processes are
                                                                       implemented consistently to remove network
                                                                       accounts for all separated users immediately
                                                                       upon notification of separation, in accordance
                                                                       with FEMA, DHS, and NIST guidance.
 FEMA­     NFIP has not developed and implemented formal          �    Develop and implement formal procedures             X                     2
IT-09-80   procedures that outline the process for conducting          that outline the internal scan processes and
           internal scans for the NFIP LAN and for assessing,          requirements.     These procedures should
           reporting, and correcting identified weaknesses. We         include, at a minimum, the process for
           also determined that remediation of vulnerabilities         assessing,    reporting,    and     correcting
           identified during internal scans of the NFIP LAN is         weaknesses      identified   during     scans.
           not formally tracked and monitored through the              Additionally, ensure that the scope of
           POA&M Process in accordance with DHS policy.                vulnerability scans conducted include all
           While the NFIP contractor conducts internal                 workstations on the NFIP LAN.
           vulnerability scans of the NFIP LAN on a monthly       �    With the involvement of both FEMA
           basis, scanning of select workstations are presently        management and NFIP contractors, implement
           excluded.                                                   procedures for formally tracking and
                                                                       monitoring the remediation of vulnerabilities
                                                                       identified during the internal scans of the
                                                                       NFIP LAN through FEMA’s POA&M
                                                                       process.




                                                                      53
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                      Repeat    Risk
NFR #                           Condition                                           Recommendation                        New Issue
                                                                                                                                       Issue   Rating
 FEMA­     FEMA does not have approved and finalized                �    Establish and formalize FEMA policies and           X                   2
IT-09-81   procedures that establish formal requirements,                procedures over the requirements, processes,
           processes, and responsibilities for performing regular        and responsibilities for performing periodic
           vulnerability scans of Core and G&T IFMIS.                    vulnerability scans for Core and G&T IFMIS
           FEMA also provided us with documented evidence of             instances, in accordance with DHS guidance.
           a G&T IFMIS internal vulnerability scan that was         �    Ensure that vulnerability assessment scans are
           performed on July 17, 2009. However, we noted that            performed for G&T IFMIS and that
           the scan was scheduled and performed after our initial        weaknesses identified are formally reported
           request for audit documentation. Additionally, FEMA           and tracked for remediation through the DHS
           was unable to provide us with any evidence that prior         POA&M process, as required by DHS
           scans of G&T IFMIS had been performed or                      guidance.
           scheduled since the system was brought online in FY
           2007.
 FEMA­     Upon inspection of the FEMA SOP for installing           Document, finalize, and implement comprehensive          X                     2
IT-09-82   UNIX patches to the Core and G&T IFMIS instances,        patch management policies and procedures for
           we noted that it does not outline the process for        Core and G&T IFMIS, in accordance with DHS
           defining a timeline for implementing non-emergency       policy. Policies and procedures should include
           and emergency patches or for authorizing, testing, and   requirements for responding to DHS SOC and
           approving patches for implementation, in accordance      DHS CSIRC notifications to ensure the timely
           with DHS guidance.                                       implementation of required patches and retention
                                                                    of testing documentation.
           Furthermore, FEMA IT personnel informed us that
           documented test results of UNIX patches are not
           retained by IT personnel after testing is completed.




                                                                        54
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                             Appendix B

                                                   Department of Homeland Security
 

                                               Federal Emergency Management Agency 

                                               Information Technology Management Letter 

                                                          September 30, 2009

                                                                                                                                             Repeat    Risk
NFR #                            Condition                                              Recommendation                           New Issue
                                                                                                                                              Issue   Rating
 FEMA­     We were informed by FEMA IT System Integrations             �    Develop and implement a formalized a                    X                   3
IT-09-83   that NEMIS’ program directories for the TDL                      process and procedures for restricting and
           environment, where all User Acceptance Testing                   monitoring access over the NEMIS production
           (UAT) occurs, and the NEMIS production                           directories to ensure that the principles of least
           environment where the code changes are implemented,              privilege and segregation of duties are
           are located on one server. Upon review of the                    enforced, in accordance with DHS guidance.
           processes for restricting access to these directories, we        The process should include requirements over
           noted the following weakness:                                    the monitoring of NEMIS system directories
                                                                            to ensure that no changes have occurred after
           �   Of the fifteen individuals with access to the
               server, 3 accounts belonged to development                   the approval of NEMIS system changes has
               personnel who have write, read, execute, and                 occurred.
               modify access to all of the server’s directories,       �    Limit the developers’ access to the NEMIS
               which allow unrestricted access to both the                  production directories to “read only” and
               production and development environments for                  segregate the responsibility for delivering
               NEMIS.                                                       application code changes into the NEMIS
           �   FEMA does not lock down the code in its server               directory server from the contractor to an
               directory environment, giving all accounts                   independent control group. If business need
               unrestricted access to the NEMIS TDL and                     requires that the segregation of duties cannot
               production environment after the code has been               be immediately implemented, document
               approved for implementation. Additionally, while             policies and procedures to compensate for the
               an ad-hoc review is performed over the directories           risk associated with the segregation of duties
               to monitor the modification dates on the                     weakness noted, in accordance with DHS
               production code directories, this process is not             guidance.
               performed consistently or documented to mitigate
               the risk of not locking down the directories.




                                                                           55
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                     Appendix B

                                                 Department of Homeland Security
 

                                             Federal Emergency Management Agency 

                                             Information Technology Management Letter 

                                                        September 30, 2009

                                                                                                                                     Repeat    Risk
NFR #                           Condition                                           Recommendation                       New Issue
                                                                                                                                      Issue   Rating
 FEMA­     Based on testwork performed, we identified the           �    Perform documented periodic reviews of             X                   3
IT-09-84   following weaknesses in PARS database security                PARS database accounts and disable inactive
           controls:                                                     accounts, in accordance with DHS policy.
           �    PARS database accounts are not reviewed to          �    Configure PARS database accounts to adhere
               identify accounts that have been inactive for 45          to DHS policy for passwords and authenticator
               days or more, as required by DHS policy for high          controls, including expiration, reuse, and
               impact systems.                                           complexity.
           �    Strong passwords are not required and/or
               enforced in accordance with DHS requirements.        �    Configure the PARS databases to log events
                                                                         and conduct documented reviews of audit
           �    Database audit logs are not configured to capture
                                                                         logs, in accordance with FEMA and DHS
               auditable events, including failed login attempts
                                                                         policy.
               and administrator-level actions.
           �   A periodic recertification of PARS database          �    Further define and implement a formal process
               access accounts is not currently performed to             that documents requirements for configuring,
               ensure that access is still necessary and                 retaining, and reviewing audit trails for the
               appropriate for each individual.                          PARS database in accordance with FEMA and
                                                                         DHS policy. Additionally, ensure that all
           FEMA could not provide evidence that initial PARS
                                                                         DHS requirements are met through this
           database granted to one of four users was
                                                                         process, including appropriate supervisory
           appropriately authorized and the individual was
                                                                         review and retention.
           inappropriately approved for emergency database
           access by the FSS Chief, rather than the                 �    Further define and establish a formal process
           FEMACISO/ISSO/ISSM or designee, as required by                for granting initial access and recertifying
           DHS policy.                                                   access specifically to the PARS database that
                                                                         includes appropriate approval from FEMA
                                                                         management and requirements for temporary
                                                                         and emergency access, in accordance with
                                                                         DHS guidance.




                                                                        56
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                           Recommendation                         New Issue
                                                                                                                                         Issue   Rating
 FEMA­     Based on observations conducted with the NFIP IT          No recommendation is required for this weakness           X                   2
IT-09-85   contractor, we determined that while TRRP system          that existed for the majority of FY 2009 because it
           passwords were configured to enforce password             was remedied prior to the end of the audit when
           complexity using alphabetic, numeric, and special         the TRRP password settings were reconfigured to
           characters, the configurations did not limit the use of   enforce complexity requirements that exceed DHS
           dictionary words.        Additionally, the password       requirements.
           configuration did not prevent the password from being
           any word, noun, or name spelled backwards or
           appended with a single digit or with a two-digit "year"
           string, in accordance with DHS guidance.

 FEMA­     We noted that the NFIP IT contractors use their           �    In accordance with policy, establish a separate      X                     2
IT-09-86   individually assigned system administrator accounts to         account for the third-party vendor’s use to
           logon and create sessions to allow a third-party               implement Traverse changes, and limit use of
           development vendor to install Traverse system                  the account so that it is activated on an as
           changes. Additionally, we determined that NFIP does            needed basis.
           not have a formal process for monitoring changes that
           the vendor makes in Traverse while logged in as an        �    Establish and implement a formal process for
           administrator.                                                 monitoring and verifying configuration
                                                                          changes made by the vendor in the Traverse
                                                                          environment, in accordance with DHS policy.
                                                                          Additionally, ensure that these procedures
                                                                          include requirements for documentation
                                                                          retention.




                                                                         57
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                     Appendix B

                                                Department of Homeland Security
 

                                            Federal Emergency Management Agency 

                                            Information Technology Management Letter 

                                                       September 30, 2009

                                                                                                                                     Repeat    Risk
NFR #                          Condition                                           Recommendation                        New Issue
                                                                                                                                      Issue   Rating
 FEMA­     Procedures for management of FEMA IT security          �    Develop, approve, and implement an SOP for           X                   2
IT-09-87   incidents have not been developed, approved, and            managing security incidents that clearly
           implemented, in accordance with FEMA and DHS                outlines roles and responsibilities required to
           requirements.                                               maintain a continuous incident response
           Additionally, our unannounced FY 2009 vulnerability         capability, as required by DHS and FEMA
           assessment scanning activity was not detected and           policy.
           appropriately reported by FEMA IT personnel in         �    Provide training to all personnel with incident
           accordance with DHS and FEMA policy.                        response roles and responsibilities.
 FEMA­     During our FY 2009 audit testwork, we noted that       �    Revise the TRRP access control policies and          X                     2
IT-09-88   NFIP had not formally established a process for             procedures to ensure that the creation of
           authorizing, documenting the approval and business          service accounts are appropriately authorized
           need for service accounts, and recertifying service         and that a clear business need is established
           accounts on the TRRP system.          As a result,          and documented justifying the creation and
           authorization forms were not on file for all service        use of these types of account in accordance
           accounts, and recertifications of access are only           with DHS policy.
           conducted for user accounts.
                                                                  �    Ensure that policies and procedures over
                                                                       TRRP access authorization include a
                                                                       formalized process for the recertification of
                                                                       service accounts on an annual basis in
                                                                       accordance with DHS policy.
 FEMA­     FEMA did not adequately conducted suitability          �    Further define and refine processes to ensure        X                     2
IT-09-89   investigations for FEMA federal employees in                that background investigations for all types of
           accordance with DHS requirements, and position              federal employees are performed in
           designations associated with employees with elevated        accordance with DHS directives.
           system privileges did not have appropriate position
           sensitivity designations.                              �    Reevaluate and assign the correct position
                                                                       sensitivity levels to federal employees with
           We also determined that formal procedures were not          access to DHS information systems in
           developed or implemented for conducting suitability         accordance with DHS policy.
           screenings of contractors accessing DHS IT systems.


                                                                      58
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                          Appendix B

                                                   Department of Homeland Security
 

                                               Federal Emergency Management Agency 

                                               Information Technology Management Letter 

                                                          September 30, 2009

                                                                                                                                          Repeat    Risk
NFR #                            Condition                                             Recommendation                         New Issue
                                                                                                                                           Issue   Rating
           Additionally, suitability investigations were not           �    Implement      procedures    within    FEMA
           appropriately conducted for contractors with access to           Acquisitions, FEMA Personnel Security, and
           multiple FEMA information systems holding sensitive              FEMA IT to ensure a more centralized and
           IT security positions, and the contractors did not have          coordinated process for tracking and
           position sensitivity designations.                               completing background investigations over
                                                                            contracting personnel in accordance with DHS
                                                                            policy.
                                                                       �    Ensure that all systems owners formally and
                                                                            correctly define the appropriate suitability
                                                                            designation for contracting personnel needing
                                                                            access to their information systems in
                                                                            accordance with DHS policy. Additionally,
                                                                            ensure that position sensitivity designations
                                                                            distinguish between various levels of access
                                                                            and require the contractor to have their
                                                                            suitability investigation completed prior to
                                                                            being granted access.
 FEMA­     We determined that FEMA has certified the FEMA              �    Formally designate an ISSO and DAA for the           X                     3
IT-09-90   Switch Network (FSN)-2 switch network, which is                  MD NPSC.
           comprised of various FEMA LANs across the regions
           and each LAN is classified as a subsystem of the            �    Immediately conduct an assessment of key
           switch network. During our review of the C&A                     controls that help ensure confidentiality and
           package, we noted that the Maryland (MD) National                availability of data for security weaknesses,
           Processing Service Center (NPSC) is considered to be             and determine the operational risk related to
           a subsystem to the overarching General Support                   MD NPSC LAN supporting FEMA financial
           System (GSS) FSN-2 and that the primary servers for              applications. Weaknesses identified should be
           NEMIS, Core IFMIS, and G&T IFMIS financial                       documented with plans for accelerated
           applications reside on this portion of the LAN.                  remediation efforts, or related risks should be
           However, the document states that no current                     formally accepted by FEMA.
           accreditation or certification letters could be found for   �    Review and revise the FSN-2 C&A package



                                                                           59
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                        Appendix B

                                                  Department of Homeland Security
 

                                              Federal Emergency Management Agency 

                                              Information Technology Management Letter 

                                                         September 30, 2009

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                           Recommendation                         New Issue
                                                                                                                                         Issue   Rating
           that subsystem during the certification and                    to reflect the current GSS environment in
           accreditation of the FSN-2 package. Specifically,              accordance with DHS and Federal guidance.
           there is no evidence in the package that the required          Additionally, ensure that the C&A Package
           C&A elements have been completed/updated,                      has been completed to include the required
           documented, or approved for MD NPSC in accordance              artifacts, addresses the security controls for
           with DHS guidance.                                             the various subsystems, and assigns and
                                                                          updates the appropriate security roles for each
           We further noted that the C&A package states that
                                                                          subsystem.
           C&A activities are to be completed for the MD NPSC
           subsystem at a separate time and that no security roles
           were defined for the MD NPSC within the C&A. We
           inquired with FEMA Information Technology (IT)
           Security and management to determine the status for
           the MD NPSC C&A package and were not provided
           with any additional information as to the status of the
           C&A package.
           Additionally, upon further review of the C&A
           package, we noted that both the MD NPSC and the
           regional LANs are within scope of this review as
           NEMIS has servers at multiple regional sites.
           Furthermore, we determined that management had
           not adequately completed the C&A package over
           FSN-2 according to DHS policy.
 FEMA­     FEMA does not have a formal process for adequately        Document and implement procedures, according to           X                     2
IT-09-91   tracking FEMA contractors throughout the on-              DHS guidelines and requirements, that track the
           boarding, termination, and transfer processes.            on-boarding, transfer, and separation of
           Furthermore, we noted that the process established for    contractors.    Ensure that the policies and
           notifying the FEMA OCIO of changes in contractor's        procedures include:
           status, so that accounts can be disabled/removed or
                                                                     •    The assignment of roles and responsibilities to
           account profiles can be appropriately modified in the
                                                                          appropriate   FEMA       management        and
           required timeframe, is not effective or comprehensive.
                                                                          stakeholders.


                                                                         60
           Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                                                                                  Appendix B

                                            Department of Homeland Security
 

                                        Federal Emergency Management Agency 

                                        Information Technology Management Letter 

                                                   September 30, 2009

                                                                                                                                  Repeat    Risk
NFR #                       Condition                                          Recommendation                         New Issue
                                                                                                                                   Issue   Rating
        Specifically, there are no formal requirements for
                                                              •    Steps for notifying the FEMA OCIO that a
        COTRs to notify the OCIO of separating contractors.
                                                                   contractor is separating or transferring so that
                                                                   the contractor will have their systems access
                                                                   removed or modified in a timely manner, in
                                                                   accordance with DHS policies.
                                                              •    Regularly distribute a listing of terminated
                                                                   contract personnel to information system
                                                                   administrators so they can remove user access
                                                                   timely.




                                                                  61
        Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated Audit
                                                                               Appendix C

                            Department of Homeland Security
 

                        Federal Emergency Management Agency 

                        Information Technology Management Letter 

                                   September 30, 2009




                                     Appendix C 


Status of Prior Year Notices of Findings and Recommendations (NFR) 

                         and Comparison to
 

                      Current Year NFRs at the 

               Federal Emergency Management Agency 





                                           62
Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                           Audit
 

                                                                                                        Appendix C

                                     Department of Homeland Security
                                 Federal Emergency Management Agency
                                 Information Technology Management Letter
                                            September 30, 2009


                                                                                                 Disposition
NFR #            Description                                                            Closed            Repeat

 FEMA-IT-08-02    During our vulnerability assessment technical testing, certain                      FEMA-IT-09-02
                  configuration management weaknesses were identified on
                  Integrated Financial Management Information System (IFMIS)
                  and National Emergency Management Information System
                  (NEMIS) database instances and on key support servers.
                  Specifically, servers were identified with password and auditing
                  configuration weaknesses
 FEMA-IT-08-03    IFMIS accounts did not complete a new Federal Emergency                             FEMA-IT-09-03
                  Management Agency (FEMA) Form 20-24 in response to the
                  recertification process.
 FEMA-IT-08-06    We noted that FEMA has made a management decision not to                            FEMA-IT-09-06
                  develop policies and procedures over the modification of IFMIS
                  account functions until the new IFMIS system upgrade occurs.
                  We noted that FEMA has reported in the Plan of Action and
                  Milestones (POA&M) that they expect to address corrective
                  action for this weakness in FY 2010. As a result, a formalized
                  process does not exist to guide Financial Services Section (FSS)
                  staff in the modification of the system to ensure that appropriate
                  privileges are created, documented, and approved for a specific
                  function.
 FEMA-IT-08-12    FEMA informed us that the automated manager certification                           FEMA-IT-09-12
                  process has not yet begun.       Therefore, the FY 2008
                  recertification has not been completed and the risk of
                  unauthorized users accessing NEMIS was present for a majority
                  of the fiscal year.
 FEMA-IT-08-13    We were informed that terminated IFMIS users are to have the                        FEMA-IT-09-13
                  “DELETEUSER” role applied to their account profile prior to
                  being removed from the application, which overrides all existing
                  roles and deactivates any existing privileges within the
                  application although the individual can still log into the account.
                  However, FEMA Instruction 2200.7 specifies that personnel
                  separating from FEMA shall have all IFMIS access privileges
                  cancelled and their user account removed. Consequently,
                  although the risk is mitigated by the limited access rights on the
                  accounts with the “DELETEUSER” privilege, those six
                  accounts demonstrate that the policies and procedures
                  surrounding the IFMIS terminated user process are not
                  consistently applied and the accounts have not been removed.
                  Additionally, 4 out of the 10 accounts remained on the IFMIS
                  system with an active status.




                                                           63
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                             Audit
 

                                                                                                     Appendix C

                                    Department of Homeland Security
                                Federal Emergency Management Agency
                                Information Technology Management Letter
                                           September 30, 2009

                                                                                              Disposition
NFR #            Description                                                         Closed            Repeat

 FEMA-IT-08-17    There is no documented evidence to support that monitoring of                    FEMA-IT-09-17
                  the “ifmiscm” directory and sub-directories is occurring.
 FEMA-IT-08-19    While FEMA informed us that system software activity is                          FEMA-IT-09-19
                  logged, we were unable to obtain evidence that the audit logs
                  were reviewed on a periodic basis.
 FEMA-IT-08-22    Per inspection of the POA&M, we noted that corrective action                     FEMA-IT-09-22
                  was initiated by FEMA to implement an alternate processing
                  facility for NEMIS, but that the alternate site has not been
                  established.
                  Due to the magnitude of the project scope, implementation of an
                  alternate processing site will not be achieved within 12 months.
                  Consistent with DHS policy for corrective actions that cannot be
                  implemented within 12 months, a Department of Homeland
                  Security (DHS) Information Technology (IT) Security Program
                  Waiver (number WR-2008-012) was approved by the DHS
                  Chief Information Security Officer (CISO) in March 2008 to
                  provide FEMA with additional time to plan and develop an
                  effective alternate processing site for NEMIS. Per DHS policy,
                  the waiver must be reviewed, updated, and re-approved by the
                  appropriate management officials every six months.
                  As required by DHS policy, the approved waiver describes the
                  mitigating efforts, management’s acceptance of the associated
                  residual risk, and a plan for attaining compliance with DHS
                  policy. The waiver also documents the compensating controls
                  to mitigate risk until the alternate processing site is
                  implemented. The compensating controls are to be derived by
                  conducting annual table-top exercises and ensuring that regular
                  backups of critical NEMIS data and offsite backup storage are
                  performed. However, a fully successful table-top test of NEMIS
                  has not been conducted for FY 2008. The waiver granted
                  provides an extension of time to implement corrective action,
                  but the associated risk still remains.
 FEMA-IT-08-23    IFMIS system administrators conducted ad hoc backup tape             X
                  restores for system users and performed a full database restore
                  in March 2008 during a server upgrade. However, there was no
                  evidence that quarterly testing was conducted or that FEMA has
                  a formalized process to test backup tapes more frequently than
                  annually.




                                                         64
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                             Audit
 

                                                                                                      Appendix C

                                    Department of Homeland Security
                                Federal Emergency Management Agency
                                Information Technology Management Letter
                                           September 30, 2009

                                                                                               Disposition
NFR #            Description                                                          Closed            Repeat

 FEMA IT-08-24    We noted that the tape restore schedule requires quarterly                        FEMA-IT-09-24
                  testing of backup tapes beginning no earlier than FY 2009.

                  Additionally, we determined that the NEMIS contingency plan
                  was not tested and consequently a full NEMIS backup tape
                  restore did not occur in FY 2008. Rather, NEMIS system
                  administrators conducted ad hoc backup tape restores at the
                  request of system users during the fiscal year.
 FEMA-IT-08-25    Due to the magnitude of the project scope to establish a “real­                   FEMA-IT-09-25
                  time” alternate processing site for NEMIS, FEMA was unable to
                  implement corrective actions to fully remediate the prior year
                  finding within 12 months. Consistent with DHS policy for
                  findings that cannot be remediated within 12 months, a DHS IT
                  Security Program Waiver (number WR-2008-012) was
                  approved by the DHS CISO in March 2008 to provide FEMA
                  with additional time to plan and develop an effective alternate
                  processing site for NEMIS. Per DHS policy, the waiver must be
                  reviewed, updated, and re-approved by the appropriate
                  management officials every six months. The waiver identifies
                  that until the alternate processing site is implemented and full
                  scale testing can be conducted, compensating controls will be
                  implemented by conducting annual table-top exercises.
                  Additionally, at the close of our audit test work, we determined
                  that annual table-top testing had not been conducted and
                  documented. We determined that the most recently conducted
                  table-top review of NEMIS contingency plan occurred on July
                  21, 2007 and was conducted for processes, procedures, and
                  scenarios identified in the contingency plan dated June 29, 2007.
                  We noted that the documented results of the July 2007 test
                  stated that FEMA was unable to successfully complete steps that
                  were planned to be conducted during the Recovery Procedure
                  Activation phase due to material weaknesses and deficiencies
                  cited in the recovery procedures.




                                                         65
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                             Audit
 

                                                                                                     Appendix C

                                    Department of Homeland Security
                                Federal Emergency Management Agency
                                Information Technology Management Letter
                                           September 30, 2009

                                                                                              Disposition
NFR #            Description                                                         Closed            Repeat

 FEMA-IT-08-28    During our FY 2008 follow up test work, we tested a selection                    FEMA-IT-09-28
                  of 40 NEMIS non-emergency application level Software
                  Change Requests (SCR) that had occurred since October 1,
                  2007. Of the 40 SCRs tested, we noted the following
                  exceptions:

                      �   29 SCRs did not have testing documentation attached
                          to the SCR;
                      �   36 SCRs did not obtain Test and Development
                          Laboratory (TDL) approval; and
                      �   32 SCRs did not obtain Technical Review Committee
                          (TRC) approval.
 FEMA-IT-08-29    We noted that TRC approvals for NEMIS application level                          FEMA-IT-09-29
                  emergency changes did not consistently follow FEMA and DHS
                  guidance. Specifically, we determined that of 25 emergency
                  NEMIS changes selected for testing:

                      �   22 changes did not have documented TRC approval;
                      �   4 did not gain SCR approval prior to implementation
                          into production;
                      �   16 did not gain TDL approval; and
                      �   6 did not have related testing documentation attached.
 FEMA-IT-08-38    We were referred to Section 2.2.1 of the National Flood                          FEMA-IT-09-38
                  Insurance Program (NFIP) Local Area Network (LAN)
                  Administrative Manual as guidance on segregating incompatible
                  duties. Based on our review of the manual, we noted that it does
                  not include policies and procedures regarding segregating
                  incompatible duties within Traverse. Additionally, while we
                  noted that system roles and responsibilities have been
                  documented, Traverse duties are incompatible are not
                  documented.
 FEMA-IT-08-39    During our test work, we noted that a planned update and                         FEMA-IT-09-39
                  subsequent testing of the Traverse Contingency Plan was not
                  conducted and that system fail over capability at the alternate
                  processing site had not been tested. Additionally, the NFIP
                  Disaster Recovery and Continuity of Operations Plan was not
                  updated to include the Transaction Recording and Reporting
                  Processing (TRRP) and Traverse alternate processing facility or
                  TRRP critical data files and restoration priorities.

 FEMA-IT-08-45    IFMIS user access is not managed in accordance with account                      FEMA-IT-09-45
                  management procedures.



                                                         66
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                             Audit
 

                                                                                                     Appendix C

                                    Department of Homeland Security
                                Federal Emergency Management Agency
                                Information Technology Management Letter
                                           September 30, 2009

                                                                                              Disposition
NFR #            Description                                                         Closed            Repeat

 FEMA-IT-08-46    The existing Memorandum of Understanding with the                                FEMA-IT-09-46
                  Department of Treasury expired in October 2007.
 FEMA-IT-08-47    Based upon our review, we determined that the                        X
                  Interconnection Sharing Agreement between FEMA and the
                  Small Business Administration expired in July 2007 and has
                  not been reauthorized and reissued, as required by DHS
                  policy.
 FEMA-IT-08-48    The vulnerabilities identified from the NEMIS scans are not                      FEMA-IT-09-48
                  reported and tracked via DHS’ POA&M process.
 FEMA-IT-08-49    We noted that the software was improperly configured so that         X
                  the user’s ability to change the following settings had not been
                  disabled:

                      �   File System Auto-Protect for automatically scanning
                          system files for threats, known viruses, and worms on a
                          continuous basis when Windows is started;
                      �   Microsoft Exchange Auto-Protect for automatically
                          scanning Outlook and/or Outlook Express messages for
                          viruses.
                      �   Lotus Notes Auto-Protect for automatically scanning
                          incoming and outgoing Lotus Notes messages; and
                      �   Internet Email Auto-Protect for scanning all incoming
                          and outgoing e-mail messages other than Outlook
                          and/or Outlook Express.
 FEMA-IT-08-50    We performed test work over audit logging on the IFMIS                           FEMA-IT-09-50
                  application and Oracle database. Based upon inquiry and
                  inspection of documentation, we determined that on a daily
                  basis, an automated report is generated and emailed to the
                  database administrators and FSS personnel for review.
                  However, while this report is distributed for review by the
                  database administrators and FSS staff, no evidence that the
                  reviews are conducted is retained.
                  Additionally, we noted that while FEMA Instruction 2200.7,
                  IFMIS User Access Instruction, assigns the responsibility of
                  conducting this weekly review to FSS, FEMA personnel do
                  not formally document that the review is conducted.
 FEMA-IT-08-51    We noted that the Standard Operating Procedure (SOP) does                        FEMA-IT-09-51
                  not comprehensively address requirements of FEMA
                  Directive 140-1, FEMA IT Security Policy. Specifically, the
                  SOP does not require the monitoring of modifications to
                  account tables and other highly-privileged and administrator­



                                                         67
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                             Audit
 

                                                                                                       Appendix C

                                      Department of Homeland Security
                                  Federal Emergency Management Agency
                                  Information Technology Management Letter
                                             September 30, 2009

                                                                                                Disposition
NFR #            Description                                                           Closed            Repeat

                  level activities.
                  Additionally, we noted that the SOP requires database
                  administrators to initial and retain printed logs as evidence
                  that reviews are conducted as required. However, FEMA
                  informed us that this portion of the SOP was not being
                  performed.
 FEMA-IT-08-52    Finalization and implementation of the Security Operations                         FEMA-IT-09-52
                  Center SOP - FEMA Information Security Vulnerability
                  Management, which specifies the timeframe for installing
                  security patches, has been delayed due to organizational
                  changes.
 FEMA-IT-08-53    Upon inspection of the NEMIS System Security Plan (SSP) that                       FEMA-IT-09-53
                  is a part of the certification and accreditation (C&A) package;
                  we noted that the server and host names listed in Appendix B of
                  the SSP are not accurate. Specifically, the listing of system
                  components is not comprehensive and portions of information,
                  such as system owners, are not up to date.
 FEMA-IT-08-54    In FY 2008, we determined that NFIP had documented and                             FEMA-IT-09-54
                  implemented the Traverse System Change Control Procedures.
                  During the audit, we determined that two Traverse changes had
                  been implemented since October 1, 2007. We obtained change
                  documentation for both changes and noted that testing
                  documentation was not retained for these changes.

 FEMA-IT-08-55    During our FY 2008 test work, we noted that NFIP documented            X
                  and implemented the NFIP Technical Services Department
                  Production Systems Control Unit Procedures that provide
                  guidance on implementing changes into the production
                  environment. We selected for testing eight TRRP changes that
                  had been implemented since October 1, 2007. Of the eight
                  tested, we identified that test results were not available for one
                  change.




                                                          68
  Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                             Audit
 

                                                                                                                 Appendix D
                                    Department of Homeland Security 

                                Federal Emergency Management Agency 

                                Information Technology Management Letter 

                                           September 30, 2009

                                                                                      U.S. Department of Homeland Security
                                                                                      Washington, D.C. 20472




                                       APR 2 1 201                                    FEMA

    MEMORANDUM FOR: Frank Deffer
                    Assistant Inspector General
                    Infonnation Technology Audits

    THROUGH:                     Brad Shefka
                                 Chief, FEMA GAO/OIG Liaison

                                                           c.&7L    fl, ~./
    FROM:                        JeanA. Etzel
                                 Chief Informatio 0 lcerlDirector
                                 Office of the C ef Information Officer
                                                                           c..e   r
    SUBJECT:                     Response to Draft Audit Report - Information Technology Management
                                 Letter for the FEMA FY 2009 Financial Statement Audit, dated March
                                 2010


    The Federal Emergency Management Agency (FEMA) appreciates the Department of Homeland Security
    (DHS) Office of the Inspector General providing KPMG's evaluation ofFEMA's information technology
    (iT) general controls and their recommendations for improving FEMA's financiaL processing environment
    and related iT infrastructure. The evaluation has been very helpful in identifying areas requiring
    improvement and prioritizing work to implement their recommendations.

    FEMA concurs with each ofthe auditor's recommendations in the report referenced above. The Chief
    Information Officer (CIO) is resolute in directing these audit recommendations be effectively implemented in
    a timely manner. The Governance and Investment lntegration Branch (GlIB), the CIO created the calB to
    manage audit activities, will hold weekly meetings with Action Officers to review the status of implementing
    these recommendations and address issues that are impeding progress. Branch Chiefs will receive weekly
    reports reflecting the current status of their organization's assigned actions and will work diligently to correct
    findings and implement recommendations.

    FEMA develops and maintains a detailed Plan of Action and Milestones (POA&M) for each audit
    recommendation in the DHS Trusted Agent FISMA (TAF) system. We believe these POA&Ms provide the
    specific responses to each audit recommendation that you requested. If you have any questions regarding the
    status of the pLanned actions, we are available to meet with your office. FEMA's senior leadership is
    committed to completing the remaining actions included in each of the POA&Ms at the earliest possible time.

    If you have any questions, please have your staff contact Landon V. Cochran, Chief, Governance and
    lnvestment Integration Branch, at 202-646-8272.




                                                           69
Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                           Audit
 

                                                                                Appendix E
                            Department of Homeland Security
 

                        Federal Emergency Management Agency 

                        Information Technology Management Letter
                                   September 30, 2009

                   Report Distribution

                   Department of Homeland Security

                   Secretary
                   Deputy Secretary
                   General Counsel
                   Chief of Staff
                   Deputy Chief of Staff
                   Executive Secretariat
                   Under Secretary, Management
                   Administrator, FEMA
                   DHS Chief Information Officer
                   DHS Chief Financial Officer
                   Chief Financial Officer, FEMA
                   Chief Information Officer, FEMA
                   Chief Information Security Officer
                   Assistant Secretary, Policy
                   Assistant Secretary for Public Affairs
                   Assistant Secretary for Legislative Affairs
                   DHS GAO OIG Audit Liaison
                   Chief Information Officer, Audit Liaison
                   FEMA Audit Liaison

                   Office of Management and Budget

                   Chief, Homeland Security Branch
                   DHS OIG Budget Examiner

                   Congress

                   Congressional Oversight and Appropriations Committees as Appropriate




                                              70
Information Technology Management Letter for FEMA Component of the FY 2009 DHS Integrated 

                                           Audit
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
